<html>
<title> - RESILIENT COMMUNICATIONS: CURRENT CHALLENGES AND FUTURE ADVANCEMENTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            RESILIENT COMMUNICATIONS: CURRENT CHALLENGES AND FUTURE 
                                 ADVANCEMENTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-116

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
80-857                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Scott Rigell, Virginia               Laura Richardson, California
Tom Marino, Pennsylvania, Vice       Hansen Clarke, Michigan
    Chair                            Kathleen C. Hochul, New York
Blake Farenthold, Texas              Bennie G. Thompson, Mississippi 
Robert L. Turner, New York               (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Vacancy, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               WITNESSES
                                Panel I

Ms. Roberta ``Bobbie'' Stempfley, Deputy Assistant Secretary, 
  Office of Cybersecurity and Communications, Department of 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. David S. Turetsky, Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Panel II

Mr. Kyle Malady, Senior Vice President, Global Network 
  Engineering and Operations, Verizon:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28
Mr. Terry Hall, President, APCO International:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Mr. Telford E. ``Trey'' Forgety, Director of Government 
  Relations, National Emergency Number Association:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Christopher I. McIntosh, Interoperability Coordinator, Office of 
  Veterans Affairs and Homeland Security, Commonwealth of 
  Virginia:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43

                                APPENDIX

Question From Chairman Gus M. Bilirakis for David S. Turetsky....    51
Question From Ranking Member Bennie G. Thompson for David S. 
  Turetsky.......................................................    51
Question From Chairman Gus M. Bilirakis for Telford E. ``Trey'' 
  Forgety........................................................    52
Question From Chairman Gus M. Bilirakis for Kyle Malady..........    53


  RESILIENT COMMUNICATIONS: CURRENT CHALLENGES AND FUTURE ADVANCEMENTS

                              ----------                              


                     Wednesday, September 12, 2012

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:26 p.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Marino, Turner, 
Richardson, Clarke, and Hochul.
    Mr. Bilirakis. Good afternoon. Thank you for your patience.
    The Subcommittee on Emergency Preparedness, Response, and 
Communications will come to an order. The subcommittee is 
meeting today to receive testimony on efforts to ensure the 
resiliency of our communication capability.
    Now I will give my opening statement.
    Yesterday marked the 11th anniversary of the September 11 
terrorist attacks. Among the many important recommendations 
made by the 9/11 Commission was the need for operable and 
interoperable communications. Much progress has been made in 
the realm of communications since September 11 and Hurricane 
Katrina.
    Federal, State, and local entities have worked to enhance 
their communications capabilities. The Office of Emergency 
Communications has been working with States and localities to 
accomplish the goals in the National Emergency Communications 
Plan.
    At long last, the D-Block has been allocated to public 
safety. Members were recently appointed to the First Responder 
Network Authority, or FirstNet. FirstNet works with Federal, 
State, local, and Tribal partners. They will work to develop, 
build, and operate the Nation-wide interoperable wireless 
broadband network.
    I am interested in hearing from all our witnesses about 
their thoughts on the development and operation of the network. 
To ensure and enhance the continuity of communications at the 
Federal level, earlier this summer, President Obama signed 
Executive Order 13618, ``Assignment of National Security and 
Emergency Communications Functions.''
    This Executive Order requires the Secretary of Homeland 
Security to serve as co-chair of the executive committee 
established by the Executive Order. The Secretary must also 
establish a joint program office in support of the executive 
committee.
    This committee has been aware of plans within the 
Department to reorganize the communications functions within 
the National Protection and Programs Directorate, although 
requests for details on the structure of such a reorganization 
have gone--they have gone unanswered.
    Mr. Stempfley, I am particularly interested in hearing 
about the Executive Order's impact on the communications 
offices in NPPD. We must ensure that any reorganization or 
consolidation of offices does not impair the ability of OEC and 
NCS to achieve their vital missions, or erode any of the 
advancements in our communications capabilities made to date.
    While we acknowledge the progress we have made in these 
areas, we must also acknowledge that more work remains. We need 
only look at the impact of the derecho earlier this summer, the 
storm, of course, that hit Virginia, and the impact of the 9-1-
1 call centers, of course, in the State of Virginia.
    I am aware that there have been a number of reviews of what 
happened as a result of the storm. I hope our witnesses will 
discuss their findings and we can work together to use these 
lessons learned to enhance the system in the future.
    I am also interested in hearing about future capabilities 
that next generation 9-1-1 will be to offer our emergency 
response providers and the public they so ably serve.
    With that, I welcome our witnesses. I look forward to your 
testimony.
    Now I will recognize the Ranking Member, Ms. Richardson 
from California, for her opening statement. You are recognized.
    Ms. Richardson. Thank you, Mr. Chairman.
    First of all, on behalf of the committee and the Chairman 
and all the Members here, I would like to acknowledge the 
unfortunate loss that we had last night of Ambassador Stevens 
and the other Foreign Service personnel. As those of you who 
are here testifying, you serve the American public as we do.
    In times like these, there is no aisle. We are all serving 
the public. We want to thank you for your service and also be 
very grateful for those families who experienced this loss.
    With that, I would like to thank the witnesses who are here 
today, and Mr. Bilirakis for holding this timely hearing. 
Yesterday, as we observed the 11th anniversary of the September 
11 attacks, as the Chairman mentioned, we were reminded of the 
chaos that ensued as courageous first responders struggled to 
use inadequate communications equipment to coordinate and 
affect their mission.
    Although the Nation has come a long way in gaining operable 
and interoperable communications capabilities, 11 years and $13 
billion later, we still have not achieved the goal of providing 
Nation-wide interoperable communications capabilities for our 
first responders.
    Moreover, the derecho that hit, the disaster that hit the 
Midwest and the Northeast in June demonstrated that even 9-1-1 
technology that we had taken for granted is still vulnerable. 
No matter how established a communications technology is, or 
how much we invest to improve it, it is only as reliable as the 
policies we have in place to ensure that it works.
    I am pleased that earlier this year, President Obama signed 
into law legislation creating a Nation-wide public safety 
broadband network. I am hopeful that this network will 
ultimately achieve the goal of providing our first responders 
with a robust, state-of-the-art, interoperable communications 
network.
    At the same time, though, I am mindful that the building of 
this network will be expensive and that it will require strong 
collaboration with the private sector and the support of the 
States if it is to achieve its maximum potential.
    Unfortunately, given the severe fiscal crisis that we are 
all experiencing on the local, State, and Federal level, 
implementation, to be frank, is questionable. Towards that end, 
I am troubled that the FirstNet board has not seen the need to 
be able to include the local State partners, which I think will 
be critical to all of our success.
    Through that appointment last month and not including an 
individual representing the State governments, some States may 
consider not participating, which would be an expense to us 
all.
    I will be interested in learning today how FirstNet's 
Federal partners can help create incentives to States to 
participate in the Public Safety Broadband Network.
    Otherwise, I am encouraged that the FCC is working with 
FirstNet to undertake efforts to create strict technical and 
interoperable requirements to ensure that networks developed by 
States that opt out of the FirstNet are interoperable with 
Federal networks.
    Strong Federal leadership is required to ensure that the 
public gets the Nation-wide interoperable that it is paying 
for. Although Federal leadership and support is needed to 
ensure that existing emergency communications technologies are 
resilient and improve at the pace that the public expects, we 
all have to accept a responsibility in that role as well.
    As many people in this room have experienced, power outages 
and backup power failures and private phone and cell networks 
disrupted the 9-1-1 system across Northern Virginia, leaving 
over 1 million people unable to call 9-1-1 for help if they 
needed it.
    I understand that the private provider and the FCC have 
each conducted investigations into that 9-1-1 failure. We look 
forward to the results.
    I look forward to hearing about the proactive measures that 
have been agreed upon to undertake and prevent future 9-1-1 
failures going forward, and about the efforts that the FCC will 
undertake to improve the resilience of the 9-1-1 system.
    Additionally, while it is important to ensure the 
resilience of the existing 9-1-1 technology, we must support 
the transition to the next generation 9-1-1 technology as well. 
Current 9-1-1 technology is outdated and does not have the 
capabilities to receive the full complement of data and text 
information that the public is capable of communicating.
    Imagine that people incorrectly believe that 9-1-1 centers 
can receive text messages. A next generation 9-1-1 system that 
can support innovative technology will better serve us all.
    Ultimately the Federal Government must provide the guidance 
and the resources to help State and local governments implement 
the next generation of 9-1-1 technology--excuse me, the next 
generation of 9-1-1 technology.
    Finally, I would like to return and acknowledge the fiscal 
burdens that are faced by the States and for us here Federally 
as well, and the struggle that we all will have before us to 
maintain and to implement emergency communications capabilities 
through the years of investment that has been done thus far.
    Federal guidance for State emergency communications 
investments must establish clear guidelines to ensure cash-
strapped States do not waste their limited resources.
    Again, I look forward to the witnesses' testimonies here 
today. I thank the Chairman for holding this important hearing.
    With that, I yield back.
    Mr. Bilirakis. Thank you, Ranking Member Richardson.
    Also, my thoughts and prayers go out to the families of the 
ambassador, the Americans that were killed in Libya yesterday.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 12, 2012
    Mr. Chairman, thank you for holding today's hearing. I look forward 
to hearing from our panel of witnesses.
    The September 11 tragedy and Hurricane Katrina taught us that 
interoperable communications are essential during a disaster.
    Those catastrophic events taught us that lives can be saved if 
first responders are able to communicate with each other.
    Few questioned the need to provide Federal grant funding to enable 
State and local governments to achieve interoperability.
    Over the last decade, the Nation has invested $13 billion toward 
the goal of creating a resilient, interoperable communications 
infrastructure.
    Our efforts to create that infrastructure have met with some 
success in improving the ability of first responders and public safety 
personnel to communicate with each other.
    However, as every parent knows, ability does not always lead to 
achievement.
    While funding has assured the availability of the tools, we must 
now move forward by making sure that the policies, procedures, and 
formal linkages are in place to achieve success.
    Our next steps must involve the effective coordination among 
Federal, State, and local stakeholders in reviewing emergency 
communications failures and developing requirements and standards for 
advanced public safety communications systems.
    Without coordination, our first responders will not be able to keep 
pace as the technology changes the means of communication.
    As a practical example, we know that most people under 30 do not 
talk on the phone--they text. Text messages and video voicemail are now 
standard communication methods. Yet few emergency response systems are 
able to receive those kinds of communications.
    We cannot allow disaster response efforts to be hampered because 
Federal, State, and local governments are unable to reach the necessary 
agreements to advance public safety communications systems.
    In closing, Mr. Chairman, building a fully interoperable public 
safety communications network can be achieved. It will require 
collaboration and coordination. I hope that all the parties--public and 
private sector--are ready for the challenge.
    I yield back.

    Mr. Bilirakis. Before we turn to our first panel, the 
subcommittee has received multiple written statements from 
amateur radio operators. I ask unanimous consent to insert them 
for the record.
    Without objection, so ordered.* Thank you.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    I would like to recognize Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chairman. I also ask unanimous 
consent to insert a written statement from the National 
Association of Broadcasters into the record.
    Mr. Bilirakis. Very good. So ordered. Without objection, so 
ordered.*
    Mr. Clarke. Thank you.
    Mr. Bilirakis. I am pleased to welcome our first panel of 
witnesses.
    Our first witness is Ms. Bobbie Stempfley. Ms. Stempfley is 
deputy assistant secretary of the Office of Cybersecurity and 
Communications. She previously served as the acting assistant 
secretary for CS&C, as well as the director of the National 
Cybersecurity Division.
    Prior to joining DHS, Ms. Stempfley served as the chief 
information officer for the Defense Information System Agency. 
Ms. Stempfley received a bachelors of science in engineering 
mathematics from the University of Arizona, and a masters of 
science in the computer science from James Madison University.
    Following Ms. Stempfley, we will receive testimony from Mr. 
David Turetsky. Mr. Turetsky is the bureau chief of the Federal 
Communications Public Safety and Homeland Security Bureau.
    Prior to joining the FCC, Mr. Turetsky served as deputy 
assistant attorney general for civil and regulatory matters in 
the Anti-Trust Division, and as senior counsel to the assistant 
attorney general.
    Mr. Turetsky has also held positions in the private sector 
and private legal practice. Welcome.
    Again, welcome. You entire written statements will appear 
in the record. I ask that you each summarize your testimony for 
5 minutes.
    We will begin with Ms. Stempfley. Again, I want to thank 
you for your patience. You are recognized.

  STATEMENT OF ROBERTA ``BOBBIE'' STEMPFLEY, DEPUTY ASSISTANT 
    SECRETARY, OFFICE OF CYBERSECURITY AND COMMUNICATIONS, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Stempfley. Thank you very much, Chairman Bilirakis, 
Ranking Member Richardson, distinguished Members of the 
committee. It is a pleasure to come and speak with you today 
about the Department of Homeland Security's efforts to improve 
communications for emergency response providers and Government 
officials.
    As you know, DHS remains focused on improving and providing 
reliable communication capabilities for those important folks, 
those first to arrive at a disaster site, the Nation's 
emergency responders and our Federal, State, and local 
partners.
    At DHS, we recognizes that critical communications tools 
are more than just technology. It is not the right equipment or 
the right solution. It is a spectrum of things that range from 
governance to standards to operating procedures, training and 
exercises, integration of those systems into daily operations, 
as well as that technology.
    We have a complete set of work at the Department that 
focuses on all of these efforts. Providing effective 
communications solutions requires fostering and nurturing 
relationships, relationships with those who own and operate the 
communications infrastructure, with international standards 
bodies, members of the emergency response community, and 
especially our Federal, State, local, Tribal, and territorial 
partners, as they are crucial as technology advances.
    The Nation-wide Public Safety Broadband Network will affect 
all aspects of emergency communications for our first 
responders. As the network is planned and deployed, it is 
essential that DHS is prepared to adapt to these changes and 
support advancements in technology.
    To this end, the Department is conducting a full review of 
the functions and programs within the Office of Cybersecurity 
and Communications to identify improvements that can be made in 
the communications programs.
    As you pointed out, this review was initiated in response 
to Executive Order 13618, ``Assignment of National Security and 
Emergency Preparedness Communications,'' signed by the 
President on July 6, 2012.
    The Executive Order benefits the overall DHS communications 
mission by updating National security and emergency 
preparedness communications responsibilities of the Federal 
Government. The implementation of this will ensure the 
Department is able to address the challenges of a dynamic 
technological environment.
    Through this review process, we are focused on increasing 
the quality and breadth of support offered to our stakeholders, 
which will be particularly helpful as we prepare for the 
implementation of this Nation-wide public safety broadband 
network and we continue the other important initiatives 
underway.
    DHS will continue in its responsibility of shaping National 
policy and working with DHS components, Federal departments and 
agencies, State and local governments, the private sector and 
international partners to improve communication capabilities 
and achieve the mission requirements and build on the progress 
made to date.
    As a part of the Department's progress in improving 
interoperability, we have developed and implemented the 
National Emergency Communications Plan. This plan contained the 
first set of National performance goals for evaluating 
emergency communications during local emergencies and complex 
events, and a process for measuring these goals in every State 
and territory.
    Through the Office of Emergency Communications, a part of 
the Office of Cybersecurity and Communications, DHS has 
achieved the first two goals outlined in this National plan and 
is working with stakeholders to update the plan, taking into 
consideration all events that have transpired since its 
publication in 2008.
    A few examples of these improvements we have seen include 
creation at the State level of State-wide plans, State-wide 
coordinators and governance, improving coordination of 
increasing regional investments. Through the OEC Technical 
Assistance Program, we have provided more than 700 targeted on-
site visits to State and urban areas to help with specific 
issues.
    We have also trained more than 4,000 police, firefighters, 
and emergency management officials throughout the Nation to set 
up communications in a standardized way. Additionally at the 
Federal level, OEC has been working with other DHS components 
through the One DHS Committee, as well as Federal agencies 
through the Emergency Communications Preparedness Center 
Committee, to improve emergency communications.
    Both of these committees will continue to be actively 
involved in the planning for the Nation-wide Public Safety 
Broadband Network.
    As mentioned, with the support and leadership of several 
Members of this committee, the President signed the Middle 
Class Tax Relief and Job Creation Act of 2012 in February 22, 
2012. Prior to the enactment of this law, the Office of 
Cybersecurity and Communications was already working with our 
Federal partners in the Departments of Commerce and Justice to 
represent DHS in the administration's efforts to set broad 
policy framework for the network and ensure the voices of State 
and local stakeholder partners were heard.
    DHS will continue working with those partners at all levels 
of government by providing technical assistance, educating 
public safety and Government officials, and ensuring the 
network meets the needs of our stakeholders through the--
Program.
    With the continued progress of the Nation-wide public 
safety broadband network, this really is an exciting time for 
the public safety community. While we have made significant 
progress to ensure that public safety can communicate when 
needed, there is still much work to be done.
    We appreciate the committee's continued support for our 
emergency communications initiatives. Thank you, again, for the 
opportunity to testify. I look forward to your questions.
    [The prepared statement of Ms. Stempfley follows:]
           Prepared Statement of Roberta ``Bobbie'' Stempfley
                           September 12, 2012
                              introduction
    Thank you Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the committee. It is a pleasure to discuss the 
Department of Homeland Security's (DHS) efforts to improve 
communications for emergency response providers and Government 
officials.
    DHS remains focused on improving and providing the communications 
capabilities for those who are the first to arrive at the scene of a 
disaster site--the Nation's emergency responders and our Federal, 
State, and local partners. Our National leaders and public safety 
personnel must have access to reliable and instantaneous communications 
to effectively coordinate response and recovery operations. DHS 
recognizes critical communications tools as more than a technology 
problem that can be solved with the ``right'' equipment or the 
``right'' communications system. All of the critical factors for a 
successful communications solution--governance, standards, standard 
operating procedures, training and exercises, and integration of 
systems into daily operations, as well as technology--are being 
addressed through the collective work of our programs.
    Further, DHS believes that providing effective communications 
solutions requires fostering and nurturing relationships with those who 
own and operate the communications infrastructure, international 
standards bodies, members of the emergency responder community, and 
Federal, State, local, Tribal, and territorial partners. These 
cooperative relationships are crucial to providing interoperable 
communications capabilities, planning for and developing priority 
services for voice, data, and video communications as networks evolve, 
and developing and implementing the Nation-wide Public Safety Broadband 
Network.
               fulfilling the dhs communications mission
    The Nation-wide Public Safety Broadband Network will affect all 
aspects of emergency communications for our first responders. As the 
network is planned and deployed, it is essential that DHS is prepared 
to adapt to these changes and support advancements in technology. To 
this end, DHS is conducting a full review of the functions and programs 
within CS&C to identify any improvements that could be made to its 
communications programs. This review was initiated in response to 
Executive Order (EO) 13618, the ``Assignment of National Security and 
Emergency Preparedness (NS/EP) Communications,'' signed by the 
President on July 6, 2012. EO 13618 replaces EO 12472 and eliminates 
the National Communications System (NCS). The EO updates and clarifies 
the NS/EP communications responsibilities of the Federal Government to 
address the challenges of a dynamic technological environment.
    EO 13618 requires DHS to develop a management and organizational 
plan to implement its NS/EP communications functions. CS&C is 
conducting a comprehensive review to develop the plan, which included 
an analysis of the functions and services of the OEC, the NCS, the 
National Cyber Security Division, and the National Cybersecurity and 
Communications Integration Center (NCCIC).
    The EO further establishes the following two entities:
  <bullet> National Security and Emergency Preparedness (NS/EP) 
        Communications Executive Committee.--The EO created a NS/EP 
        Communications Executive Committee, an eight-department and 
        agency interagency committee, co-chaired by DHS and the 
        Department of Defense (DOD) to make recommendations to the 
        President of the United States on NS/EP communications-related 
        matters.
  <bullet> Executive Committee Joint Program Office (JPO).--The EO 
        directed the Secretary of DHS to establish a Joint Program 
        Office to support the Executive Committee. DHS is establishing 
        the JPO within CS&C, which complements DHS's existing 
        interagency fora and partnerships led by CS&C.
    Through these new entities, as well as existing partnerships, DHS 
will continue its responsibility of shaping National policy and working 
with other DHS components, Federal departments and agencies, State and 
local governments, the private sector and international partners to 
improve communications capabilities and achieve mission requirements.
              current initiatives and on-going challenges
Nation-wide Public Safety Broadband Network
    On February 22, 2012, with the help and leadership of the United 
States Congress, the President signed the Middle Class Tax Relief and 
Job Creation Act of 2012, which establishes the Nation-wide Public 
Safety Broadband Network (NPSBN) for emergency responders at all levels 
of government. The signing of the Act was the culmination of over a 
decade of effort to see the reallocation of the ``D Block'' of spectrum 
to public safety and to fulfill one of the 9/11 Commission 
recommendations: The development of a Nation-wide interoperable 
communications network. The Act establishes a new entity within the 
National Telecommunications and Information Administration of the 
Department of Commerce to oversee planning, construction, and operation 
of the network, known as the First Responder Network Authority, or 
FirstNet. The Secretary of Homeland Security is one of the three 
Federal representatives to the FirstNet Board, in addition to the 
Director of the Office of Management and Budget and the Attorney 
General. On August 20, 2012, the Secretary of Commerce also appointed 
12 additional Board members from the fields of public safety, 
technology, network operations, and finance. Prior to the enactment of 
the law, DHS, through the Office of Emergency Communications (OEC) 
within the Office of Cybersecurity and Communications (CS&C) was 
already working with our Federal partners in the Departments of 
Commerce and Justice to represent DHS in the administration's efforts 
to help set the broad policy framework for the NPSBN and to ensure that 
the voices of our State and local stakeholder partners were heard. Over 
the past few months, DHS has increased its efforts to support the 
implementation of the Network and to carry out our statutory 
requirement to support the Secretary through her role as a member of 
the FirstNet Board. More specific examples include the following 
broadband-focused programs and activities:
  <bullet> Planning and Assessments.--DHS is preparing an update to the 
        National Emergency Communications Plan (NECP), which is the 
        first Nation-wide strategy designed to advance emergency 
        communications across all levels of government. The updated 
        NECP will identify key broadband challenges and recommend near-
        term actions to foster the integration of broadband 
        technologies and data capabilities, as well as propose measures 
        to maintain existing Land Mobile Radio communications 
        capabilities until broadband technologies can support mission-
        critical communications. Simultaneously, CS&C is working with 
        individual States to update the State-wide Communication 
        Interoperability Plan (State-wide Plan) criteria to ensure that 
        State-wide Plans are reflective of broadband technologies and 
        data capabilities.
    DHS is also conducting a cyber risk assessment of the NPSBN to help 
        the Department and our partners gain a better understanding of 
        risks related to its deployment. Relying on the Department's 
        expertise in cybersecurity, DHS will provide FirstNet with this 
        assessment and recommended implementation steps. We have held 
        several stakeholder meetings with public safety and industry 
        representatives to discuss cyber risk issues, with a focus on 
        network security and interoperability.
  <bullet> Outreach and Coordination.--DHS is working with all of its 
        stakeholder groups to ensure the views and requirements of the 
        public safety community are fully represented in broadband 
        planning and implementation efforts.
    <bullet> To increase coordination of Federal efforts for broadband 
            implementation, the Emergency Communications Preparedness 
            Center (ECPC) is working to identify Federal broadband 
            requirements by preparing a consolidated view of emergency 
            communications assets, addressing associated legal and 
            regulatory barriers, reviewing and analyzing Departmental 
            positions on pending broadband regulatory matters and 
            rulemakings, and establishing standardized grant guidance 
            and processes. The ECPC has identified the development of 
            broadband standards and research and development as one of 
            its strategic priorities.
    <bullet> Concurrently, the OneDHS Emergency Communications 
            Committee is providing consolidated Departmental input into 
            Federal interagency efforts, as well as developing 
            strategies for broadband technology migration from current 
            land mobile radio technology to next generation wireless 
            network technology.
    <bullet> DHS supports outreach efforts related to the development 
            and deployment of a Nation-wide public safety broadband 
            network by working with representatives from the SAFECOM 
            Executive Committee and Emergency Response Council to 
            develop educational materials on public safety broadband. 
            Educational materials include information on funding and 
            governance, and are targeted to multiple audiences.
    <bullet> DHS continues to coordinate with the emergency response 
            community, preparing wireless broadband guidance documents 
            for State-wide Interoperability Coordinators, urban area 
            and regional interoperability coordinators, public 
            officials and executives, and emergency responders to 
            support current NECP and State-wide Plan initiatives on 
            interoperability planning. The Department also continues to 
            provide emergency response stakeholders up-to-date and 
            comprehensive information about wireless broadband in the 
            emergency response environment. In addition, DHS is working 
            with States and jurisdictions to incorporate broadband 
            initiatives into the State-wide Plans.
    <bullet> Under the strategy and policy direction of the OneDHS 
            Emergency Communications Committee, DHS has initiated a 
            joint program management office to capture and implement 
            Department-wide broadband requirements to develop a next 
            generation tactical communications mobile platform for 
            voice, data, and video.
  <bullet> Grants.--DHS has been coordinating with Federal agencies to 
        ensure consistency in grant policies and requirements affecting 
        broadband investments. DHS has worked with its Federal agency 
        partners to limit investment in high-risk projects that may not 
        comply with FirstNet requirements or support the development of 
        a Nation-wide network for public safety users. Further, DHS has 
        aligned key grant guidance with Federal broadband goals. The 
        2013 SAFECOM grant guidance, which provides guidance to State 
        and local stakeholders applying for grants, will emphasize the 
        need to plan before purchasing--a strategy in full alignment 
        with the National Telecommunications and Information 
        Administration (NTIA) State and Local Implementation Grant 
        Program. The ECPC Recommendations for Federal Agencies: 
        Financial Assistance for Emergency Communication provides 
        guidance to Federal program managers administering emergency 
        communication grants, and stresses the need for technical 
        compliance to ensure Federally-funded investments are 
        compatible and interoperable. The ECPC Recommendations Document 
        will be updated to reflect new programs, policies, and 
        requirements related to the deployment of the Nationwide Public 
        Safety Broadband Network.
  <bullet> Technical Assistance.--DHS has developed a wireless 
        broadband technical assistance offering to assist State, local, 
        territorial, Tribal, and regional users to develop and improve 
        their use of broadband technology in line with the vision of a 
        Nationally-interoperable network. The offering is tailored for 
        each jurisdiction and provides informational briefings, 
        governance models, standard operating procedures, project 
        planning, and engineering support.
  <bullet> Research and Development.--The Science and Technology 
        Directorate's (S&T) Office for Interoperability and 
        Compatibility (OIC) is supporting the deployment of the Nation-
        wide public safety broadband network through requirements-
        gathering and standards acceleration activities. This includes 
        supporting the Department of Commerce's 700 MHz demonstration 
        network, which provides public safety with a unique testing 
        environment for broadband systems and devices before 
        operational use. Additionally, OIC is working with the 
        Department of Commerce on a modeling and simulation project to 
        provide public safety with the ability to evaluate broadband 
        network deployment scenarios and investigate how well new 
        technologies support public safety requirements. Further, OIC 
        is evaluating how to define a transition path for current Land 
        Mobile Radio technology to the future broadband network.
                    national and state-wide planning
    Over the last 5 years, OEC has worked to fill many gaps in public 
safety communications and DHS is seeing progress in several key areas 
that enable emergency responders to interoperate in an all-hazards 
environment. As part of its mission, the office led a comprehensive 
Nation-wide planning effort with more than 150 stakeholders from the 
emergency response community to develop the NECP. This included 
significant feedback and coordination with the SAFECOM Executive 
Committee, the SAFECOM Emergency Response Council, and the National 
Public Safety Telecommunications Council. These stakeholder groups 
represent the interests of millions of emergency responders, as well as 
the State and local governments that public safety communications 
serve. Involving these groups in the early phases ensured that the plan 
took stakeholders' input into account and would be widely accepted in 
the public safety community.
    The NECP has been instrumental in defining communication priorities 
for public safety personnel at all levels of government. CS&C has been 
driving implementation of the NECP in coordination with its Federal, 
State, and local partners, and we are seeing measurable improvements in 
building capabilities and closing gaps identified in the plan for 
governance, training, operating procedures, and others, including:
  <bullet> Enhanced State-wide Coordination.--The creation of State-
        wide Communication Interoperability Plans, State-wide 
        Interoperability Coordinators, and State-wide Interoperability 
        Governing Bodies has improved coordination of emergency 
        communications activities and investments throughout all 56 
        States and territories. Through the State-wide Plan development 
        and updating process, the State-wide Interoperability 
        Coordinators, in collaboration with their governing bodies, 
        have been effective in helping States define their 
        communications needs and future investments and ensuring that 
        Federal funding is directed where it is most needed. In 
        addition, CS&C has conducted over 160 workshops during the past 
        4 years to assist States as they implement and update their 
        State-wide Plans.
  <bullet> Common Plans, Protocols, and Procedures.--The use of 
        standardized plans and procedures is driving improved command, 
        control, and communications among emergency responder agencies 
        in the field. CS&C and the Federal Emergency Management Agency 
        (FEMA) have worked with more than 140 jurisdictions, including 
        Urban Areas Security Initiative (UASI) regions, to develop 
        Tactical Interoperable Communications Plans that document 
        formalized interoperability governance groups, standardized 
        policies and procedures, and emergency communications equipment 
        inventories. States continue to develop these communications 
        plans to cover additional regions.
NECP Goal Assessments
    Implementation of the NECP has been a key driver behind much of our 
progress in improving interoperability. More than 85 percent of the 
NECP milestones were achieved, and progress is evident in all of the 
NECP priority areas, including governance, training, and coordination.
    Through the NECP, OEC also established the first set of National 
performance goals for evaluating emergency communications during local 
emergencies and complex events, as well as a process for measuring 
these goals in every State and territory. These goals include:
  <bullet> Goal 1.--By 2010, 90 percent of all high-risk urban areas 
        designated within the Urban Areas Security Initiative (UASI) 
        can demonstrate response-level emergency communications within 
        1 hour for routine events involving multiple jurisdictions and 
        agencies.
  <bullet> Goal 2.--By 2011, 75 percent of non-UASI jurisdictions can 
        demonstrate response-level emergency communications within 1 
        hour for routine events involving multiple jurisdictions and 
        agencies.
  <bullet> Goal 3.--By 2013, 75 percent of all jurisdictions can 
        demonstrate response-level emergency communications within 3 
        hours, in the event of a significant event, as outlined in 
        National planning scenarios.
    To implement Goal 1, OEC assessed UASI regions' abilities to 
establish and demonstrate response-level emergency communications 
during large-scale, planned events. Every urban area was able to 
achieve the Goal, and the results showed progress in key emergency 
communications capabilities beyond the development of Tactical 
Interoperable Communications Plans (TICP) in 2007. For Goal 2, OEC 
worked with all States and territories to assess emergency 
communications at the county level, including county equivalents such 
as parishes, municipalities, and townships. The process has generated 
unparalleled data on interoperability emergency communications 
capabilities and gaps and is helping DHS and States focus future 
resources and improvement activities.
    As of today, more than 2,800 counties and county equivalents have 
participated in the Goal 2 process, including about 30,000 individual 
public safety agencies. Among the participating jurisdictions, about 90 
percent were able to achieve response-level communications and 
demonstrate NECP Goal 2. The assessment also showed progress in key 
areas of emergency communications, including the establishment of more 
inclusive governance structures and formal standard operating 
procedures, as well as the frequency and ease in which jurisdictions 
use interoperable communications solutions.
    CS&C is encouraged with the outcome of the NECP Goals. Both the 
high level of participation and the demonstration of NECP Goal 1 and 2 
are major accomplishments in the Department's on-going efforts to 
assess progress Nation-wide and better target its emergency 
communications resources, such as grants, technical assistance, 
training, and other planning efforts. OEC is currently updating the 
NECP and will be revising Goal 3 accordingly to take into consideration 
events that have transpired since the NECP was first released in 2008. 
This includes key findings from Goals 1 and 2, as well as lessons 
learned/best practices from real-world disasters and events, such as 
floods, hurricanes, earthquake, and tornadoes of 2011.
Collaboration with Federal Partners
    In addition to the extensive progress made to improve emergency 
communications at the State, local, and Tribal level noted above 
through the work of the NECP, the Department, through OEC, is 
coordinating efforts to improve emergency communications among DHS 
Components and other Federal agencies.
    As mentioned above, CS&C operates the Emergency Communications 
Preparedness Center to coordinate policy, planning, and administration 
of emergency communications across 14 Federal departments and agencies. 
The ECPC provides an inter-departmental mechanism to coordinate common 
solutions, streamline development of policy and plans and jointly 
engage State, local, territorial, and Tribal partners. The ECPC has 
achieved early successes through defining a strategic agenda that 
reflects shared member priorities and establishes issue-specific focus 
groups to drive immediate action.
    CS&C also administers the OneDHS Emergency Communications 
Committee, which aims to improve internal coordination of policy and 
planning across DHS Components with emergency communications missions. 
This committee provides a vital mechanism for maximizing the efficiency 
and effectiveness of the Department's emergency communications 
investments and activities. The OneDHS Committee reached a significant 
milestone in June 2011 with the creation of the unified OneDHS 
Emergency Communications Strategy. The Strategy establishes a common 
vision ``to ensure access to and exchange of mission-critical 
information across the Homeland Security Enterprise anywhere, anytime, 
through unified capabilities.'' It also sets goals for coordinating and 
improving emergency communications architecture, investment, 
governance, and operations.
    Improved Governance and Coordination.--DHS is working with Federal, 
regional, State, and local agencies to increase coordination, 
information sharing, and oversight of interoperability through formal 
governance structures and partnerships. CS&C instituted a Regional 
Coordination Program to strengthen collaboration and knowledge sharing 
with our stakeholders. CS&C has established a Regional Coordinator in 
each of the 10 FEMA Regions, and they regularly participate in the 
State-wide Interoperability Governing Bodies, urban area 
interoperability meetings and their respective FEMA Regional Emergency 
Communications Coordination Working Groups.
    The CS&C Regional Coordination program has worked closely with FEMA 
through the Disaster Emergency Communications Division to ensure State 
and local agencies have the capability to communicate during disaster 
response. Because the Regional Coordinators interact with stakeholders 
every day, they have an in-depth understanding of the needs of 
different communities across their Regions.
    Targeted Technical Assistance.--CS&C has implemented a technical 
assistance strategy to ensure that all States and territories can 
request and receive its targeted, on-site emergency communications 
assistance, while also focusing support on the States and urban areas 
with the highest risk and lowest capability. These 40-plus offerings 
are tailored to support the priorities in each State or territory 
State-wide Plan and the objectives of the NECP, including the 
implementation of the Nation-wide public safety broadband network 
discussed above. Since 2008, the 56 States and territories have 
combined to request more than 750 individual technical assistance 
services from CS&C for support with the development of governance 
structures, tactical and strategic planning, and a variety of 
engineering services. To better address the interoperability needs at 
the National and local level, CS&C has developed several on-line 
offerings and tools that can be accessed via the internet.
    Increased Training Opportunities.--As mentioned above, CS&C has 
developed Communications Unit Leader (COML) and Communications 
Technician (COMT) courses to improve emergency responders' proficiency 
with communications equipment and to assist them with coordinating 
roles and responsibilities during an incident or event. The COML 
program has been embraced by emergency responders Nation-wide, and CS&C 
has trained more than 3,500 responders, technicians, and planners to 
lead communications at incidents across the Nation, including local 
floods, blizzards, and wildfires. Trained COMLs have also contributed 
to recovery efforts throughout the United States, including the recent 
outbreak of tornados and massive flooding in the Midwest and Southeast. 
To assist States in leveraging these trained responders, CS&C has 
developed a portal for State-wide Coordinators to locate contact 
information for every trained COML, COMT, and Auxiliary Communicator.
Future Enhancements
    Future advancements in technology will provide emergency responders 
and Government officials with new means to communicate during routine 
events as well as disasters. However, these advancements will also 
create new challenges that will require enhancements to current DHS 
programs. In order to ensure DHS is prepared to support stakeholder 
efforts to address these new challenges, the Department is reviewing 
existing communications programs to identify where future enhancements 
are necessary.
    Critical Infrastructure Protection.--As we guide the transition of 
emergency and NS/EP communications, CS&C will continue building and 
nurturing those relationships that are critical to protecting the 
Communications and Information Technology Infrastructures. Since 2003, 
the Department has led the identification, prioritization, and 
protection of the Nation's 18 critical infrastructure sectors under 
Homeland Security President Directive 7 (HSPD-7). Since its inception, 
CS&C led these critical efforts for the Communications and IT system of 
systems, which is interdependent with other critical infrastructure. 
CS&C will continue planning and reporting on the progress of these 
sectors as outlined in the National Infrastructure Protection Plan. We 
will continue our partnership with all stakeholders to jointly publish 
Sector-Specific Plans and National Risk Assessments, which help to 
mitigate vulnerabilities to infrastructure.
    Priority Services Program Management.--CS&C develops and maintains 
NS/EP communications priority services programs, which has supported 
the communication needs of over 1 million users across all levels of 
government and the private sector. The GETS program is a White House-
directed emergency telecommunications service. GETS supports over 
274,000 Federal, State, local, and Tribal government, industry, and 
non-governmental organization personnel in performing their NS/EP 
communications missions by providing a robust mechanism to complete 
calls during network congestion from anywhere in the United States. 
Specifically, GETS provides 90 percent or more call completion rates 
when network call volume is up to 8 times greater than normal capacity.
    WPS is the wireless complement to GETS, created due to the 
overwhelming success of GETS during 9/11. The program enhances the 
ability of 108,000 NS/EP subscribers to complete cellular phone calls 
through a degraded public switched telephone network during a crisis or 
emergency situation. WPS calls receive the next available radio channel 
during times of wireless congestion, which helps to ensure that key NS/
EP personnel can complete critical calls by providing priority access 
for key leaders and supporting first responders. WPS service provides 
authorized cellular phone users with the ability to have priority 
within the public switched telephone network as well as priority access 
to cellular radio channels.
    The Telecommunications Service Priority (TSP) Program is a Federal 
Communications Commission (FCC)-sponsored program that authorizes and 
provides priority restoration, provisioning, and reconstitution of NS/
EP communications. The TSP Program provides service providers with an 
FCC mandate for prioritizing service requests by identifying those 
services critical to NS/EP. TSP can save days to weeks on the time 
required to return wireline voice/data services to normal, and there 
are more than 200,000 active TSP circuit assignments in support of NS/
EP communications.
    As the Nation's communications infrastructure migrates to an 
Internet Protocol (IP) operating platform, expediting the convergence 
between communications and cybersecurity activities remains a top 
priority for the Department. CS&C continues its plans for ensuring 
priority voice, data, and voice communications over these IP networks 
through its Next Generation Networks Priority Service Program (NGN-PS).
    Public-Private Partnerships.--Our partnership with the private 
sector has been instrumental in developing critical NS/EP and emergency 
communications policies within the Department. One of the Department's 
most critical relationships exists with the President's National 
Security Telecommunications Advisory Committee (NSTAC). The NSTAC is a 
Federal Advisory Board comprising up to 30 Chief Executive Officers 
from the Nation's leading communications, banking, and information 
technology companies. Most notably, the NSTAC has been instrumental in 
several Government-led initiatives, such as the creation of the 
National Cybersecurity and Communications Integration Center (NCCIC), 
Government Emergency Telecommunications Service (GETS), Wireless 
Priority Service (WPS) and the National Coordinating Center for 
Telecommunications (NCC). Beyond its Federal Advisory role, CS&C 
actively nurtures critical relationships with NSTAC member companies to 
protect the overall Communications and IT infrastructures. CS&C will 
continue its support to and partnership with the NSTAC to create 
communications solutions for our stakeholders. Most recently, the NSTAC 
examined four scenarios designed to stress future 2015-level networks, 
and provided the President with recommendations for technology 
enhancements and Government investments that would provide the best 
network resilience and recovery.
    Modeling, Analysis, and Technology Assessments.--The CS&C Modeling, 
Analysis, and Technology Assessments team provides expertise in 
modeling and analyzing current and future protocols, algorithms, 
network designs, and capabilities that will impact priority service 
communications in legacy and Next Generation Networks (NGNs). The 
modeling team also maintains a suite of specialized infrastructure 
analysis tools to provide critical infrastructure risk assessments for 
the communications sector in the event of a man-made or natural 
disaster. These services will play a large role in analyzing future 
technology.
    Standards Activities.--The CS&C Standards Team is currently an 
active leader and contributor to various National and international 
standards development organizations, ensuring industry-wide adoption of 
non-proprietary solutions for NS/EP preparedness telecommunications 
requirements. The team provides leadership and representation in 
standards bodies to recommend standards that, when implemented in 
Internet Protocol-based networks, will provide capabilities to ensure 
National, State, and local leadership are able to communicate during 
times of crisis. These activities will continue as the Department works 
with partners to develop standards for both NS/EP communications and 
public safety broadband requirements.
                       national response planning
    CS&C is working with Federal, regional, State, and local agencies 
to increase communications coordination, information sharing, and 
oversight of emergency preparedness activities to improve response to 
man-made and natural disasters. CS&C works with these entities to 
ensure a coordinated response through formal governance structures and 
partnerships.
    Continuity of Operations and Government (COOP/COG).--CS&C will 
continue leading the Department's responsibilities to ensure the U.S. 
Government has the means to perform Enduring Constitutional Government, 
National Essential Functions and Primary Mission Essential Functions as 
directed in National Security Presidential Directive--51 (NSPD-51)/
Homeland Security Presidential Directive--20 (HSPD-20). Furthermore, 
the CS&C in its role as Co-chair of the EO 13618 Executive Committee 
will continue to assist the Federal Executive Branch in meeting its NS/
EP communications needs.
    Emergency Response and Operations.--CS&C will also continue leading 
response, recovery, and reconstitution efforts leveraging its Emergency 
Support Function (ESF) No. 2 responsibilities. Partnerships with our 
Federal, State, local, Tribal, and private-sector partners will 
continue to be a critical enabler of the Department's broader homeland 
security mission.
    We will also continue operating a joint Government-industry 
capability through the NCC. The NCC will continue providing critical 
response, recovery, and provisioning and reconstitution efforts for 
communications, leveraging the many DHS communications tools and 
capabilities. As it has since 2000, the NCC will be serving as the 
Communications Information Sharing and Analysis Center (ISAC), which 
brings together over 50 private-sector partners.
    In addition to the overlapping missions and initiatives noted 
above, this new organization will focus on supporting the responder 
community at the Federal, State, local, Tribal, and territorial levels 
and will enhance DHS's incident handling and response for cyber and 
communications-related incidents.
                               conclusion
    The Department appreciates the committee's support for our 
communications activities. Thank you again for this opportunity to 
testify.

    Mr. Bilirakis. Thank you very much.
    Mr. Turetsky, you are recognized for 5 minutes, sir.
    Yes, if you can turn the mic on, please. Thank you.

   STATEMENT OF DAVID S. TURETSKY, CHIEF, PUBLIC SAFETY AND 
  HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Turetsky. Is that better?
    Good afternoon, Chairman Bilirakis, Ranking Member 
Richardson, and Members of the subcommittee. Thank you for the 
opportunity to appear before you.
    When Congress created the Federal Communications Commission 
in 1934, it made one of the commission's foundational 
obligations, ``the promotion of safety of life and property 
through the use of wire and radio communications.''
    In the years since, consistent with this mandate, the FCC 
has applied Congress' public safety charge to changing 
communications technologies, including, most recently, Voice 
over Internet Protocol. Nowhere is our responsibility to 
promote public safety more important than with regard to 9-1-1 
services and availability.
    Today I will focus my discussion on part of the FCC's 
response to the June 29 derecho storm that hit parts of the 
central, Mid-Atlantic, and Northeastern United States, and 
dramatically affected emergency communications over wide 
swathes of the country.
    The vast majority of those in the path of the derecho were 
able to continue to use wireline and mobile communications 
networks effectively and reliably to make calls and reach 9-1-
1. But there was also another side which showed clearly that 
telecommunications networks lacked needed and vital resiliency.
    The FCC is very concerned that carrier network failures 
deprived millions of the ability to reach 9-1-1 operators who 
could dispatch needed help. There were brief and isolated 
network breakdowns in Ohio and Indiana that knocked out 9-1-1 
service, and longer, systemic failures elsewhere.
    Most notably in northern Virginia and in West Virginia, 
carrier network failures resulted in a significant number of 9-
1-1 call centers not receiving 9-1-1 calls at all, or the 
location information necessary to enable proper dispatch.
    The FCC promptly began an inquiry to learn all the facts, 
circumstances, and causes of the outages and disruptions in 
service. The goal of this inquiry is simple: To use this 
information to make people safer.
    Although local, State, and regional governmental entities 
are primarily responsible for supporting and operating 9-1-1 
services and providing radio communications for first 
responders, our inquiry is particularly important. Only the FCC 
can follow the full path of the storm across these 
jurisdictions and bring communications expertise, statutory 
responsibilities, excellent industry contacts, and public 
visibility to the entire range of communications issues it 
raised.
    In our inquiry, we have met with more than half a dozen 
carriers, more than 25 public safety answering points, called 
PSAPS, at least once. We also sought input from the public and 
interested parties by issuing a public notice asking for 
information not only about the derecho, but also about other 
similar disasters where 
9-1-1 or other emergency services were affected.
    We received reply comments just last week.
    We also continue to evaluate important information 
submitted to the commission on a confidential basis through two 
key FCC systems: The Network Outage Reporting System, we call 
NORS, and the Disaster Information Reporting System, we call 
DIRS, both of which provide vital outage and critical 
infrastructure status information during times of crisis.
    While we are still reviewing the record, we have learned 
that not all carriers have exactly the same problems in 
providing reliable 
9-1-1 networks.
    Just two examples: First, not all carriers adequately 
monitor and implement important best practices and technical 
announcements that could reduce 9-1-1 outages from standards 
organizations. So while best practices are helpful, they are 
not the complete answer.
    Second, there are important differences as to how carriers 
ensure that necessary redundancy is preserved in the routing of 
emergency circuits, including circuits that carry location 
information.
    We expect to produce a public report on what we learned 
from the derecho before the end of the year. As I mentioned we 
just received reply comments last week.
    The FCC continually assesses how to enhance the reliability 
and resiliency of communications networks. One developing way 
is to foster the development of next generation 9-1-1 services, 
which will enable people to make voice, text, or video 
emergency contacts from any communications device, via Internet 
Protocol-based networks.
    At the end of the day, our communications networks need to 
be just as reliable and resilient when there is an enhanced 
need for emergency assistance as when there is not. We should 
never forget that lives depend on it.
    [The prepared statement of Mr. Turetsky follows:]
                Prepared Statement of David S. Turetsky
                           September 12, 2012
    Good afternoon, Chairman Bilirakis, Ranking Member Richardson, and 
other Members of the House Subcommittee on Emergency Preparedness, 
Response, and Communications. Thank you for the opportunity to appear 
before you to discuss the Federal Communications Commission's (FCC's) 
efforts to enhance public safety by making critical communications 
infrastructure more reliable and resilient, including America's 9-1-1 
system.
                              introduction
    The Commission is committed to working with its public safety 
partners, communications providers, and others, to ensure the integrity 
and reliability of our communications networks and services. It is 
essential particularly in times of major emergencies, such as during 
and after a natural disaster, that communications networks keep us 
connected to each other and to the help we may need.
    When Congress created the FCC in 1934, it made one of the 
Commission's foundational obligations, ``the promotion of safety of 
life and property through the use of wire and radio communications.'' 
In the years since, consistent with this mandate, the FCC has applied 
Congress's public safety charge to changing communication technologies, 
including, most recently, phone calls made over a broadband internet 
connection instead of typical analog telephone lines (i.e., 
interconnected Voice over Internet Protocol, or ``VoIP.'') In fact, 
Congress recently reaffirmed the FCC's core mission and its approach by 
codifying the requirement that interconnected VoIP providers provide 9-
1-1 services.
    To fulfill its mandate under the 1934 Communications Act, the FCC, 
primarily through its Public Safety and Homeland Security Bureau, works 
hand-in-hand with our Federal, State, local, and Tribal public safety 
partners, to enhance the reliability of our Nation's communications 
infrastructure. Nowhere is our responsibility to promote public safety 
more important than with regard to 9-1-1 services and availability. 
While we are always very concerned whenever there is a substantial 
communications outage, we are exceptionally concerned when an outage 
affects the public's ability to obtain help through 9-1-1.
    Today I will focus my discussion on the impact of--and the FCC's 
response to--the recent derecho storm that hit parts of the Central, 
Mid-Atlantic, and Northeastern United States in late June. I will also 
touch on the Commission's response to Hurricane Isaac just 2 weeks ago, 
as well as efforts the FCC has taken to make our Nation's critical 
communications infrastructure more resilient, and the challenges that 
lie ahead.
                         the june derecho storm
The Derecho's Impact on Communications
    On June 29, a fast-moving and extremely severe derecho weather 
system dramatically affected emergency communications over wide swaths 
of the United States. Starting in the Midwest and increasing in 
ferocity through the mid-Atlantic and Northeastern regions of the 
country, the derecho left death and destruction in its wake. Ohio, 
Kentucky, West Virginia, Virginia, Maryland, and New Jersey reported 
deaths; and these and other States reported billions of dollars in 
physical damage and severe adverse economic effects. Millions of people 
lost electrical power during and after the storms for periods ranging 
from a few hours to over a week, all during a historic, record-breaking 
heat wave. Many needed help urgently, as live electrical wires came 
down, trees crushed occupied homes and vehicles, and other emergencies 
unfolded.
    In many areas, communications services held up very well. The vast 
majority of those in the path of the derecho were able to continue to 
use wireline and mobile communications networks effectively and 
reliably: To make calls, reach 9-1-1, and get help. The great majority 
of Public Safety Answering Points (PSAPs, which are 9-1-1 call centers) 
were able to receive calls and location information, and to dispatch 
help accordingly. Dedicated radio services for the public safety 
community and first responders also seem to have been mostly unaffected 
by the storm.
    The broadcast industry performed well. As FCC Commissioner Pai 
noted, broadcasters played a ``critical role'' for those impacted by 
the storm--when ``electrical power, cell sites, and broadband networks 
went offline, battery-power radios served as a lifeline connecting many 
of us to the outside world.'' For me, in addition to numerous other 
sources of information on conditions and developments, I listened to 
WTOP, the Washington, DC area news station.
    While this was the ``bright side,'' there also was another side, 
which showed clearly that telecommunications networks lacked needed and 
vital resiliency. For various lengths of time, millions lost the 
ability to reach 9-1-1 operators who could dispatch needed help. Some 
of those who attempted to make emergency calls found their wireless 
service unavailable or their calls blocked. Call volume increases 
during and after natural disasters, and this fact combined with cell 
site and other outages complicated efforts to originate calls to secure 
emergency help.
    The FCC is particularly concerned that carrier network failures hit 
some 9-1-1 facilities especially hard. There were isolated, short-
lasting network breakdowns in Ohio and Indiana that knocked out 9-1-1 
service, but longer-lasting systemic failures elsewhere. Most notably, 
in northern Virginia and in West Virginia, as a result of carrier 
network failures, a significant number of 9-1-1 call centers couldn't 
receive 9-1-1 calls at all, or didn't receive E9-1-1 location 
information to enable proper dispatch. Even when some connectivity was 
restored, 9-1-1 service was partially down for several days in many 
call centers due to carrier failures.
    The seriousness of the situation was illustrated most clearly 
throughout northern Virginia, particularly in Fairfax County, parts of 
Prince William County, Manassas Park, and Manassas, where well over 1 
million people faced the possibility of not being able to call 9-1-1 
successfully. In Fairfax County, for example, these carrier network 
failures affected both primary and backup 9-1-1 systems. The result was 
that the 9-1-1 call center serving most of the 1.1 million people of 
Fairfax County couldn't receive any 9-1-1 calls at all for several 
hours. Emergency officials have told us that about 8 hours after the 
storm hit, from 7:30 in the morning on Saturday, June 30, until 3:00 PM 
later that day, the carrier failures left Fairfax County wholly without 
9-1-1 service--just as people were beginning to wake up and assess the 
damage, report downed wires and trees to authorities, and begin the 
clean-up process. Even after arrangements for rerouting 9-1-1 calls 
finally were made, 
9-1-1 service was significantly degraded for days--in fact, 9-1-1 
features that we all now take for granted and which public safety 
officials rely on, like automated number and location identification, 
were not fully restored everywhere for days.
    Similarly, West Virginia experienced serious problems, with even 
more, but generally smaller 9-1-1 call centers knocked out of service 
by carrier network failures. Many of the 50 9-1-1 call centers in West 
Virginia were adversely affected.
    Public safety officials from all of the affected areas tell us they 
relied in part on broadcasters and social media, (particularly Twitter, 
Facebook, and e-mail sign-ups) to get the word out on how to contact 
emergency services. These officials, in light of the utter loss of 
connectivity to 9-1-1 services, were sometimes reduced to telling 
people needing help to walk to their nearest police station or fire 
house--a completely unacceptable position for these first responders 
and the affected communities.
    The public's inability to reach 9-1-1 and obtain emergency 
assistance during the derecho was not just a theoretical or abstract 
concern, nor is it such in connection with other natural disasters This 
is well understood by those who serve our country by answering 9-1-1 
calls, first responders who risk all to save others, hospital workers 
who try to save lives, and even by those who work to make 
communications networks more resilient. Whether and how fast help can 
be called and a first responder arrives might make the difference 
between a life lost or the possibility of a healthy future. As the 
Washington Post reported, in Falls Church, Virginia, Dylan Cooper 
perished after he was struck by electrical wires brought down during 
the derecho. Bystanders who came to his aid and called 9-1-1 reportedly 
were not able to get through, even after calling for over 30 minutes. 
In another instance, just a few hundred feet from her Washington, DC 
apartment, a woman was knocked off her motorcycle and pinned under a 
tree, leaving her partially paralyzed--she was saved when passers-by, 
unable to get through to 9-1-1, flagged down an ambulance which was 
able to provide additional help.
The FCC's Response
    In responding to the derecho, the Commission worked very closely 
with the Federal Emergency Management Agency (FEMA) and others, to 
monitor and respond to the communications outages caused by the storm, 
including those severely impacting E 9-1-1 services.
    In doing so, we utilized the FCC's Operations Center, which is 
staffed 24 hours a day 7 days a week. We engaged in direct outreach to 
carriers and other affected by the storms. We collected key data, 
supported by pre-established information reporting protocols. We issued 
Situation Reports, providing our Government partners with details of 
the damage and the pace of recovery.
    We also took immediate action to help lessen the impact of the 
storm. For example, we granted an emergency Special Temporary Authority 
the day after the derecho struck, so that a utility company from out-
of-State could go to Ohio to help restore power there, and communicate 
using the frequencies that their communications equipment supported. We 
also used the FCC's website and social media to issue a set of consumer 
tips for communicating during an emergency.
    Immediately after the impacts of the derecho on communications and 
9-1-1 services dissipated, the FCC began an inquiry through its Public 
Safety and Homeland Security Bureau to learn all of the facts and 
circumstances of the outages and disruptions in service, including the 
causes. The inquiry covers both disruptions that affected the 9-1-1 
call centers and those that affected cell sites, network 
interconnection, switches, and other facilities. The latter impedes the 
effective use by consumers of wireline, wireless, and broadband 
communications to reach emergency providers in and after a natural 
disaster, when more consumers than usual need to do so.
    The goal of this inquiry is simple--to use this information to make 
people safer. We want to enhance public safety by applying the lessons 
learned to help make communications more reliable and resilient, and 
reduce the chances that these failures will be repeated. As FCC 
Commissioner Rosenworcel aptly put it: ``the agency has a duty to 
search out the facts--wherever they may lead. Then we can apply the 
lessons we learn and make our networks more resilient, more secure, and 
more safe.''
    Although local, State, and regional governmental entities are 
primarily responsible for supporting and operating 9-1-1 services and 
providing radio communications for first responders, our inquiry is 
particularly important: Only the FCC can follow the full path of the 
storm and bring communications expertise, statutory responsibilities, 
excellent industry contacts, and public visibility to the entire range 
of communications issues it raised. Moreover, as noted earlier, 
Congress has given the FCC authority to ensure that communications 
networks, including those that offer interconnected VoIP service, 
promote the ``safety of life and property.''
    To aid our core mission, the Commission has been seeking helpful 
information and views from a broad range of stakeholders. On July 18, 
we sought input from the public and interested parties by issuing a 
Public Notice, asking for information not only about the derecho, but 
also about other similar disasters where 9-1-1 or other emergency 
services were affected. We received reply comments just last week, 
which we are currently reviewing. This effort is distinct from, but 
complementary to, a pre-existing inquiry into the overall resiliency, 
reliability, and continuity of American communications infrastructure 
and services, when exposed to catastrophic events.
    We began our derecho-related inquiry by conducting a series of 
meetings that is still on-going. We have spoken directly with a wide 
range of stakeholders, some several times, including 6 different 
communications service providers, 25 different 
9-1-1 call centers in the most severely-impacted areas of Virginia and 
West Virginia, and numerous public safety officials, including those 
working for Federal, State, local, and Tribal governments.
    We also continue to assess and evaluate important information 
submitted to the Commission on a confidential basis through two key FCC 
systems, the Network Outage Reporting System (NORS) and the Disaster 
Information Reporting System (DIRS), both of which provide vital outage 
and critical infrastructure status information during times of crisis.
    Although we are still conducting our inquiry and reviewing the 
record, we have already learned, for example, that not all carriers 
have exactly the same problems in providing reliable 9-1-1 networks. To 
provide just a couple illustrations:
  <bullet> not all carriers adequately monitored and implemented 
        important best practices and technical announcements from 
        standards organizations that specifically target reducing 9-1-1 
        carrier network outages. Thus, the development of standards 
        voluntarily may well be a good idea, but it is not a panacea.
  <bullet> there are some important differences on how carriers ensure 
        that necessary redundancy is preserved in the routing of 
        emergency circuits, including the circuits that carry location 
        information; on a going-forward basis, we are particularly 
        interested in how carriers conduct audits to enhance that 
        redundancy.
After we have completed a full review of the record, and before the end 
of this year, we expect to produce a public report on what we learned 
from the derecho.
    We are also mindful that we need to consider not only highly 
specific fixes that will result in improvement to the systems affected 
by the derecho, but also whether more systemic improvements are needed 
in our 9-1-1 system generally. The public safety community is rightly 
concerned that 9-1-1 has been adversely impacted repeatedly by carrier 
network problems. Even though the root causes may not be precisely the 
same in each instance, we need to explore whether there are solutions 
that can lower the risk of 9-1-1 failure generally.
               impact of hurricane isaac and fcc response
    I would also like to mention the communications impact of and the 
FCC's response to Hurricane Isaac, which hit the Gulf Coast region just 
2 weeks ago. Unlike the powerful, unanticipated, and fast-moving 
derecho, Hurricane Isaac followed the pattern of a typical hurricane 
and provided carriers with more lead time to mobilize their response 
and reroute call traffic to avoid major outages.
    Isaac severely affected the northern Gulf Coast region and caused 
deaths in Louisiana, Mississippi, and Florida. Though almost a million 
people in the affected States were without electrical power at the 
height of the storm, and preliminary estimates are that it caused $1.5 
billion in damage, we are thankful that, in contrast to the derecho, we 
have received no reports of any 9-1-1 systems being completely knocked 
out in the region where Isaac hit.
    Beginning even before the hurricane hit, the FCC, in consultation 
with its Federal partners, most notably FEMA, activated DIRS to gather 
and monitor information for select, targeted counties and parishes in 
Florida, Alabama, Mississippi, and Louisiana.
    The FCC staff worked tirelessly before, during, and after the 
storm, including through the entire Labor Day weekend, compiling and 
analyzing this information and preparing daily Situation Reports to 
inform our Governmental partners in detail of the state of 
communications services in the selected areas, which is vital knowledge 
in setting public safety and restoration priorities. This information 
identified, among other things, the extent of outages and the pace of 
recovery experienced by wireless and wireline carriers, broadcasters, 
cable providers, PSAPs, and others. The FCC's 247 Operations Center 
assisted in these efforts.
    The FCC also:
  <bullet> identified 9-1-1 call centers and broadcasters in Puerto 
        Rico, the U.S. Virgin Islands, Florida, Alabama, Louisiana, and 
        Mississippi to determine their operational status and to assist 
        with provisioning any needs to help maintain or restore their 
        operations;
  <bullet> conducted outreach to Federal partners, emergency operation 
        centers, the National Association of Broadcasters, Association 
        of Public Safety Communications Officials (APCO), and National 
        Emergency Number Association (NENA), the 
        9-1-1 association;
  <bullet> deployed, at the request of FEMA Region IV, two Roll Call 
        Teams to conduct spectrum scans along Florida's Gulf Coast, and 
        in the States of Alabama and Mississippi. (In a hurricane 
        situation, Roll Call teams use spectrum analyzing equipment to 
        develop a baseline of public safety communications users before 
        the storm and then again after landfall, to identify which 
        systems are operating and which are not, and which areas their 
        signals reach, which assists in identifying and prioritizing 
        recovery needs);
  <bullet> conducted outreach to the Florida, Louisiana, Mississippi, 
        and Alabama broadcaster associations to determine status of 
        their emergency preparations;
  <bullet> conducted outreach to FEMA Region VI to determine support 
        required from the FCC in Louisiana; and
  <bullet> conducted outreach to local Spanish language radio and 
        television broadcasters in the New Orleans area; and monitored 
        and coordinated with our Federal partners to ensure that the 
        non-English speaking community continued to have access to 
        vital local news and emergency information during and after 
        Isaac through KGLA 1540 AM/105.7 FM, and Telemundo Channel 42. 
        These efforts led to the refueling of the back-up generators 
        that serve these stations' transmitter and studio.
    Notably, these types of coordination and action also reflect the 
dramatic improvement that has occurred in the last few years in 
preparation and coordination across the Government to respond to 
National disasters. Much of the information supplied by the FCC came 
through systems that did not exist at the time of Hurricane Katrina.
                         other fcc initiatives
    The FCC is continually assessing and evaluating what initiatives it 
should take to enhance the reliability and resiliency of our Nation's 
critical communications facilities. In August of last year, for 
example, the Chairman announced a five-step action plan to further the 
development and deployment of Next Generation (NG) 
9-1-1 services. The plan includes actions by the FCC, and a roadmap for 
FCC partnerships with State, local, and Tribal 9-1-1 authorities, other 
Federal agencies, and the private sector.
    Though NG 9-1-1 deployment will take time to accomplish, NG 9-1-1 
systems will improve the reliability of 9-1-1 service because Internet 
Protocol-based architecture provides more flexibility and resiliency 
than the legacy circuit-switched 
9-1-1 system. In an NG 9-1-1 world, people will be able to make voice, 
text, or video emergency ``calls'' from any communications device via 
Internet Protocol-based networks.
    When NG 9-1-1 ultimately becomes widely available, consumers will 
benefit by having more ways to send information and more types of 
information that they can transmit. For example, someone who is able to 
text but not to speak aloud because of the danger they face, or someone 
who is hearing impaired, will be able to seek and obtain help more 
easily than now. In appropriate cases, the availability of more types 
of information--pictures, videos, etc.--may enable first responders to 
assess emergencies faster and more accurately, and launch a more 
effective response.
    There is much work to do to advance to a full NG 9-1-1 environment. 
It will not be easy or fast. Consumers will need to be educated about 
the transition, and must understand that even as NG 9-1-1 introduces 
new capabilities, voice 9-1-1 calling will continue to have many 
important advantages and will remain fully supported. We need to make 
sure that as NG 9-1-1 is deployed, we address the many important and 
valid concerns that PSAPs have about introducing new technology--so 
that new technology serves our 9-1-1 professionals rather than the 
other way around.
    One crucial point: Even though the FCC and others are engaged in 
the hard and important work of helping to make an NG 9-1-1 world a 
reality in the not-too-distant future, we stress that it is essential 
to public safety that the FCC, telecommunications carriers, and the 
public safety community--take steps to improve the E 9-1-1 world as it 
is today. The public demands this, and rightfully so. As FCC 
Commissioner McDowell noted, having ``[h]ardened and reliable 9-1-1 
systems is crucial to the public interest.'' The Chairman and other 
Commissioners, and public safety, demand that we improve the 
reliability of 9-1-1 in the world as it is today.
    The FCC is also looking at what we can do better, including what 
actions, if any, we can take to improve the process of obtaining 
information through NORS and DIRS, how we use the information 
internally, and whether we can communicate better in emergencies with 
the public and with our partners, Federal and otherwise. As part of 
those improvement efforts, I note that this past February, the FCC, 
working with its public safety partners and telecommunication carriers, 
adopted rules requiring interconnected VoIP service providers to report 
significant network outages that meet specific criteria and thresholds. 
The action was a common-sense recognition that interconnected VoIP 
services have become increasingly popular in recent years. The number 
of consumers using these services in lieu of traditional telephone 
service is growing steadily, with more than 87 million residential 
telephone subscriptions now provided as interconnected VoIP service. 
This means VoIP platforms are carrying a substantial volume of 9-1-1 
calls.
    At the end of the day, the bottom line is: All Americans should 
expect 9-1-1 service to be available not only in ``normal,'' everyday 
circumstances where a range of emergencies take place, but especially 
when it is perhaps most needed most of all--when a major disaster 
occurs. Our communications networks need to be just as reliable and 
resilient when there is an enhanced need for emergency assistance, as 
when there is not. We should never forget that lives depend on it.
    Thank you for inviting me to appear before you today. I would be 
happy to answer any questions you may have.

    Mr. Bilirakis. Appreciate it very much. I will recognize 
myself for 5 minutes for questions.
    The first question is for Ms. Stempfley. Ms. Stempfley, as 
you know, I sent a letter to the under secretary, Beers, back 
in June requesting information on the rumored merger of OEC and 
NCS. I received a reply a month later, but did really didn't 
get a response to my questions.
    President Obama, in the mean time, issued Executive Order 
13618. It is my understanding this merger will be completed 
under that authority. Is that correct?
    Ms. Stempfley. Thank you very much, sir, for the question, 
because it really gives me the opportunity to talk about the 
Office of Cybersecurity and Communications as a whole, and the 
important focus areas that we have under the Executive Order 
13618.
    There are several areas in the implementation plan that we 
have going through staffing process inside the administration 
right now, that we are focused on. It includes ensuring that we 
have broad operational reviews--so the National Cybersecurity 
and Communications Integration Center, which will be the 
organization that integrates the operations capabilities of all 
of the component parts of the Office of Cybersecurity and 
Communications, including those that are currently in the 
National Communications System.
    It also includes information about the pieces of the Office 
Emergency Communication and of the National Communication 
System that are best aligned and integrated with each other.
    Finally, it recognizes some of the important points where 
industry is coming together in strong ways. We want to have 
consistent stakeholder engagement with our industry partners 
across the communications and cybersecurity spectrum.
    As I said in my opening statement, it is very important for 
us to focus on ensuring that what this does is improve our 
service to the public safety community.
    Mr. Bilirakis. Okay, what does it mean to the merger of OEC 
and NCS? How will this work to ensure--how will we work to 
ensure that OEC will not be adversely impacted by this merger? 
I mean, a lot of people are concerned about this, as you can 
see and you can understand.
    Ms. Stempfley. I certainly can understand. It has always 
been a priority for the Department to--the public safety 
community has been a priority for the Department.
    What I would say is the statement that merger is too 
limiting in what we are talking about. As I attempted to point 
out, we are looking at ensuring that we can bring the best 
parts of the National Communication System efforts that 
actually expand on what OEC can do into that, look at what the 
existing National Communication System does in operations and 
align that with the broader operations capabilities across the 
board.
    I welcome further dialogue on this with your staff.
    Mr. Bilirakis. Okay. Well, we will follow up with that.
    Ms. Stempfley. Absolutely, sir.
    Mr. Bilirakis. Discuss now the new Executive Order. How 
will it impact or change the continuity of communications 
operations at FCC?
    Mr. Turetsky. The new Executive Order, we think, is a very 
positive development. The FCC is one of the eight entities on 
the executive committee. The updating of the order I think, in 
part, recognizes, at least from an FCC perspective, the 
tremendous changes that have occurred over time.
    I mentioned earlier the development of the DIRS reporting 
system and the NORS reporting system. These didn't exist a 
decade or 20 years ago when the prior structure was set up.
    We produce in emergencies daily situation reports to help 
provide information to FEMA and to our other Federal partners 
about the status of networks, the pace of repair, to help 
target what the immediate needs are. We do things like respond 
to requests to send what we call roll call teams out to sites 
where hurricanes are going to come, to scan the frequencies and 
determine what is up and operating in terms of broadcast and 
the like. Then we come back and do it afterward to see what is 
not operating.
    All of these kind of measures have given us a very active 
role that has changed in the last few years from what was true 
a long time ago. So from our point of view, a streamlined 
executive committee that enables us to deal effectively with 
our partners is a very positive development that will 
facilitate emergency response.
    Mr. Bilirakis. Okay. Mr. Turetsky, can you discuss briefly 
the next generation 9-1-1 and the potential it has to enhance 
resiliency on the 9-1-1 capabilities? How far, in your 
estimation--how far out are we in implementing this Nation-
wide?
    Mr. Turetsky. We have got a ways to go. This is not going 
to, in all of its glory, be an answer in the short term. I 
think it is going to proceed in phases. I think one of the 
phases that is achievable in the shorter term is texts to 9-1-
1.
    Texts to 9-1-1 is a very important development for a number 
of reasons. One, for hearing impaired citizens, it may be the 
only realistic way in an emergency to reach out and communicate 
effectively to obtain 9-1-1 help.
    Second, in emergencies it may be the only available way for 
other people. If you think about the kind of situation at 
Virginia Tech, where you had a shooter going through halls, 
trying to go into classrooms, you couldn't make 9-1-1 calls 
very easily in certain of those areas because nobody wanted to 
be heard. Silence was important.
    Well, texting allows for that. It is another way to get 
help. There are trials going on around the country. Verizon has 
been a pioneer in these trials. AT&T has just been a pioneer as 
well, announcing a trial of Tennessee.
    Last week, I believe, we received a filing from Vermont 
that said in a text to 9-1-1 trial, they saved one human life. 
Someone who was going to commit suicide texted, did not make a 
call. They were able to get there and prevent that.
    So it is very, very promising. We can't wait for it all to 
be available and operational, the parts of it that will take 
longer. But there are parts of it we can do sooner rather than 
later.
    Mr. Bilirakis. All right, well, thank you very much. 
Appreciate that.
    Now I will recognize my Ranking Member. You are recognized 
for 5 minutes, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    First, Ms. Stempfley, what assurances are that the FirstNet 
will design and implement the Nation-wide public safety 
broadband network in a way that would avoid some of the carrier 
network vulnerabilities that were exposed recently by the 
storm?
    Further, given that carrier networks are not hardened in 
the same way as public-safety-grade networks to withstand these 
kinds of storms, was it wise for the NTIA to suspend the early 
public safety LTE deployment, made possible by the Recovery 
Act, such as the one that was near completion in the State of 
Mississippi?
    Ms. Stempfley. Ma'am, one of the advantages of the 
relationship that the Department has with industry is the 
communications sector, which represents the carriers plus the 
wired line broadcast and other members, presents an annual 
National Sector Risk Assessment.
    That National Sector Risk Assessment talks about key 
vulnerabilities that exist across the environment and 
articulate the actions that the sector is taking as a part of 
that. This is a plan that is required under the National 
Infrastructure Protection Plan.
    We are using that information to inform the work that is 
being done by the FirstNet group. So that plan is a part of the 
work that the Office of Emergency Communications is using as it 
is helping through the Emergency Communications Preparedness 
Center and through the FirstNet Advisory Board and others to 
inform FirstNet and that board as they go forward.
    Ms. Richardson. Had they, though, previously considered the 
impacts of these types of storms that would have been on the 
system?
    Ms. Stempfley. So in the plan, there is certainly the 
concept of physical issues, whether they be through natural or 
unnatural causes. It doesn't go into a level of specificity 
that this storm dictated, but it covers a broad set of efforts.
    There is continual work for this sector to do to build more 
detail into the plan. That work is underway with industry.
    Ms. Richardson. Do you anticipate, going forward, that this 
will, in fact, be considered?
    Ms. Stempfley. I do.
    Ms. Richardson [continuing]. Suggesting that?
    Ms. Stempfley. Yes. Yes, ma'am. I believe it is actually in 
the physical component of it. Certainly as communications ISAC, 
which those members are represented on the floor of the 
National Cybersecurity and Communications Integration Center. 
We have partners on the floor there, both from the carriers and 
others.
    As that ISAC meets and reviews that process and as that 
sector coordinating council meets and reviews those activities, 
a part of the Government contribution to that is articulating 
what is of interest to the Government. This certainly is----
    Ms. Richardson. Okay.
    Ms. Stempfley [continuing]. One item of interest.
    Ms. Richardson. So if you could communicate that 
information as it progresses back to the committee----
    Ms. Stempfley. Yes, ma'am.
    Ms. Richardson [continuing]. It would be helpful.
    Mr. Turetsky, can you please tell me why you think the FCC 
is uniquely qualified to monitor the status of and provide 
information about the operations of our Nation's communications 
infrastructure? Couldn't other agencies do the same thing?
    Mr. Turetsky. Thank you for the question. I think the 
derecho investigation was perhaps one of the illustrations of 
what is unique about the FCC and what we bring to the table 
that is hard to duplicate.
    As the expert regulator in the communications sector, we 
have deep relationships across the board with carriers who are 
wireless or wire lined, with broadcasters, with cable 
companies, and with all of the other participants in the 
infrastructure.
    We have a Nation-wide jurisdiction in the area that we are 
talking about today. It includes, as I said, the promotion of 
safety of life and property through the use of wire and radio 
communications, which is a very broad jurisdiction.
    It enables us to cross all of the lines and dig in with the 
expertise we have, the jurisdiction we have, to address public 
safety issues in a way that nobody else can.
    Ms. Richardson. Thank you, sir.
    Ms. Stempfley, again, I understand that many critics have 
described the Executive Order 13618 as a potential power grab 
by the administration. But it is my understanding that the 
Executive Order is merely an exercise of the authority already 
granted by the statutes dated back to 1934.
    Could you discuss the statutory authorities that support 
this Executive Order? I only have 28 seconds left.
    Ms. Stempfley. Ma'am, Executive Order 13618 is an update of 
24-year-old Executive Order 12472. The statutory authority is 
the same.
    Ms. Richardson. Okay. Thank you.
    With that, I think I will yield. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you very much.
    Now I will recognize Mr. Marino from the great State of 
Pennsylvania. You are recognized for 5 minutes, sir.
    Mr. Marino. I have no questions at this time.
    Mr. Bilirakis. Okay.
    I now will recognize Mr. Clarke from the great State of 
Michigan. You are recognized for 5 minutes, sir.
    Mr. Clarke. Thank you, Mr. Chairman. The State of Michigan, 
parts of it borders Canada. Because of that, I am very 
concerned that the new broadcast spectrum auction that has been 
authorized by Congress earlier this year could really pose a 
problem to many of the people that I represent who are senior 
citizens or disabled, who are struggling financially, all of 
whom exclusively rely on local, over-the-air free television 
for their information, and also to receive their emergency 
information and news.
    The broadcast incentive auction could result, I believe, in 
the reduction in the number of channels available to local 
television stations in the metro Detroit area as a result of 
the likely repacking or reallocation of that spectrum that 
would occur as a result of the incentive auction.
    If that happens, many of the people that are the most 
vulnerable, less likely to get information from any other 
source, may not be able to get an emergency alert in the event 
of an emergency.
    Mr. Turetsky, would you commit to work with the Congress to 
make sure that all Americans, especially the folks that I 
represent in metro Detroit and those residents that live along 
the Northern Border, that they would still have access to free 
local, over-the-air television during an emergency, be able to 
receive emergency communications?
    Mr. Turetsky. Certainly, Congressman, the kinds of 
communications you are talking about are very important. The 
FCC will be working to preserve them.
    I am not involved in the incentive auction item that is 
coming up. But I would be happy to supply a further response in 
writing on behalf of the commission.
    But certainly we very much care about that issue and would 
want to ensure that there is a continued source of information, 
as you describe it.
    Mr. Clarke. Thank you very much.
    Then on the same note--and I am also concerned. You know, 
we have had previous disasters where cell phone service has 
failed. I am from Detroit and that happened many years ago.
    If there is a way that we could make sure that these cell 
phones either, you know, radio receivers in them, or those that 
already have radio chips, so that they could be activated, so 
that people would be able to have access, via radio, being able 
to receive the emergency alerts, that would be helpful as well.
    So if that is something that the FCC could also help 
safeguard, that the emergency communications available through 
cell phones would have that radio chip in them or have them 
activated, we would appreciate that.
    If you have any comments on that, I would also welcome.
    Mr. Turetsky. I do. We provide a variety of ways that are 
voluntary for emergency alerts to be received. To the extent 
you are talking about the FM chip issue, in 2008 the commission 
considered that issue and decided neither to require it nor to 
prohibit it.
    Since that time, the FM chip has been included in numerous 
cell phones and is available today from the major carriers. 
There is certainly a very important value to having access to 
broadcast. I supplemented during the derecho when I had no 
power the information I received through other sources with 
information from WTOP radio and others.
    But I did it with a crank radio and I did it when I went 
into my car. I did it a lot of other ways.
    Consumers have a number of options. If they want it from 
their cell phone, that is an option that is available to them. 
Right now, I think I would be inclined to leave it to the 
marketplace.
    Mr. Clarke. Well, thank you. I will follow up with you on 
that too.
    My final comment, Mr. Chairman, is that I would hope that 
this subcommittee would exercise its oversight jurisdiction to 
make sure that the broadcast spectrum auction preserves free, 
over-the-air local television service, especially to those 
residents that live along the Northern Border.
    Thank you very much.
    Mr. Bilirakis. Thank you. Thank you.
    I have one additional question. I will ask the Ranking 
Member if she has any.
    But this is for the two of you: How, if at all, will the 
Executive Order signed by President Obama apply to FirstNet?
    Ms. Stempfley. FirstNet is an independent entity. What the 
Executive Order provides for is the opportunity for the Federal 
users to present the resilience requirements of the Federal 
user to the board, for the board's consideration.
    So that would be the means by which the Executive Order 
applies.
    Mr. Bilirakis. Would you like to respond, sir, as well?
    Mr. Turetsky. I don't have anything to----
    Mr. Bilirakis. Okay.
    Mr. Turetsky [continuing]. To add.
    Mr. Bilirakis. All right.
    Representative, do you have any questions? Any questions 
for them? Any additional questions?
    Mr. Clarke.
    Okay. Thank you very much for your testimony. Appreciate 
it. Thanks for your patience as well.
    Now I will dismiss the first panel. We will get right into 
the second panel.
    We are expecting votes around 4:45. So we are going to try 
to finish up. We will finish up before the next votes.
    I welcome our second panel. Our first witness is Mr. Kyle 
Malady. Mr. Malady is a senior vice president for the Global 
Network Engineering and Operations at Verizon, where he is 
responsible for the planning, design and operation of Verizon's 
global voice, data, and I.P. network.
    He previously served as the vice president of network and 
technology at Verizon Wireless, and began his career with NYNEX 
Mobile Communications. Mr. Malady has earned his degree in 
mechanical engineering from the University of Bridgeport in 
Connecticut, and his MBA in finance from NYU.
    Following Mr. Malady, we will receive testimony from Mr. 
Terry Hall. Mr. Hall is a communications manager with the York 
County Virginia Regional Emergency Communications Center, and 
has been appointed by the governor of Virginia to the State E 
9-1-1 Service Board.
    Mr. Hall currently serves as the president of the 
Association of Public Safety Communications Officials.
    Next, we will receive testimony from Mr. Trey Forgety. Mr. 
Forgety is the director of government affairs and regulatory 
counsel for the National Emergency Number Association, a 
position he has held since 2010. Prior to joining NENA, Mr. 
Forgety served for 2 years a presidential management fellow in 
the Department of Homeland Security's Office of Emergency 
Communications.
    He has also worked with the FCC's Public Safety and 
Homeland Security Bureau, and at NTIA. Mr. Forgety attended the 
University of Tennessee, where he got both his bachelors of 
science and applied physics and his J.D.
    Finally, we will receive testimony from Mr. Chris McIntosh. 
Excuse me. Mr. McIntosh is the Commonwealth of Virginia State-
wide interoperable communications coordinator. He also served 
as the operations section chief at the Virginia Department of 
Emergency Management and has worked in the private sector in 
support of the Department of Homeland Security's Virtual USA 
Program.
    Mr. McIntosh served in the United States Navy--thank you 
for your service--as a surface warfare officer. Mr. McIntosh 
earned his B.A. in history from Penn State University.
    Welcome. We look forward to your testimony. Your written 
statements will appear in the record. I ask that you summarize 
for 5 minutes.
    We will start with Mr. Malady. You are recognized, sir, for 
5 minutes.

STATEMENT OF KYLE MALADY, SENIOR VICE PRESIDENT, GLOBAL NETWORK 
              ENGINEERING AND OPERATIONS, VERIZON

    Mr. Malady. Thank you, Mr. Chairman. Good afternoon to you 
and to the Ranking Member Richardson and Members of the 
subcommittee.
    I am pleased to appear today to discuss Verizon's provision 
of 
9-1-1 services. I will specifically focus on the impact that a 
severe storm had on the 9-1-1 network in northern Virginia in 
late June. I will discuss the lessons we learned from that 
event, and the steps we have taken to solidify our resilience 
to natural disasters and commercial power outages.
    Verizon provides service to over 1,500 9-1-1 call centers 
across the country. These centers are referred to as Public 
Safety Answering Points, or PSAPs. Our network connects people 
who need assistance to each PSAP, where they can speak with 
personnel trained to handle such emergency calls.
    During a typical month, we deliver, on average, over 14.5 
million calls to the PSAPs. Verizon is proud to be a part of 
the 9-1-1 ecosystem. We take very seriously the important role 
our networks play in ensuring 9-1-1 services are always 
available, particularly in times of crisis.
    Verizon designs its network to be fault tolerant. In fact, 
our 
9-1-1 networks' designs include multiple levels of diversity 
and redundancy. If a particular call route is not working, we 
send the call over another route to the PSAP automatically.
    We also equip our critical facilities with back-up power 
sources. If we lose commercial power, the facility is designed 
to continue operating via a combination of built-in batteries 
and generators.
    We try to prepare for all reasonable contingencies in 
emergency planning, to ensure that the 9-1-1 network is 
available 24/7. But emergency preparedness is an ever-changing 
and on-going process.
    So if our systems do not work as planned or if a storm or 
other event reveals opportunities for further improvements, we 
will be proactive in implementing appropriate changes.
    The June storm provided valuable lessons that allow us to 
improve our ability to handle 9-1-1 calls and better serve the 
public and our PSAP partners. So here is what happened in 
northern Virginia as a result of the recent storm.
    On Friday, June 29, a severe storm hit the Mid-Atlantic 
region with unusually intense straight line winds. This derecho 
caused widespread commercial power outages in the D.C. Metro 
area, and widespread damage to Verizon's network.
    It downed more poles than Hurricane Irene did in 2011. We 
lost commercial power in more than 100 locations. Almost 
everywhere, our back-up power systems kicked in. The batteries 
and generators worked as designed, allowing us to continue 
service. We were able to maintain 9-1-1 service to the vast 
majority of the more than 200 PSAPs we serve across the storm's 
path.
    However, generator failures at our Fairfax and Arlington 
facilities disabled hundreds of network systems, and causing us 
to lose our ability to monitor the network in the impacted 
area.
    These generator failures also caused a loss of 9-1-1 
service to four PSAPs. Our backup power systems should have 
withstood the derecho without the resulting 9-1-1 outage, but 
they did not. That is why we are making three key improvements, 
above and beyond repairs to the generators that failed, that 
will minimize the risk of 9-1-1 service disruptions in the 
event of future power outages.
    First, we are currently performing rigorous power system 
audits in all mission-critical facilities supporting 9-1-1 in 
the D.C. Metro area. We will complete these audits by the end 
of October. We will also perform the same audits Nation-wide 
and complete them by March, 2013.
    We will take corrective measures, identify these power 
audits right away.
    Second, we are instituting new emergency procedures for 
testing, power restoration, and personnel mobilization. We 
could have restored service sooner if we recognized more 
quickly the partial power outage in Fairfax. We have developed 
procedures to accurately assess and effectively communicate the 
status of our power systems.
    This activity has been completed for the sites in northern 
Virginia, and is underway for the rest of our service area.
    Third, we are redesigning our systems to enhance the 
survivability of our monitoring systems. This new design will 
include new equipment and more diverse network connections. 
Much of this redesign will be in place Nation-wide in 2013.
    We are also working with the PSAPs to improve 
communications during an emergency or system failure. Over the 
past few years, Verizon has established robust processes to 
communicate with the PSAPs during such events.
    However, as a result of this storm, the northern Virginia 
PSAPs have made recommendations on how to improve 
communications, which we are supportive of and are working to 
implement.
    We must also improve our overall communications to the 
public during events such as this. We will share additional 
information about the future storm impacts and our restoration 
efforts more quickly, in a more easily understood manner.
    So in summary, Mr. Chairman, Verizon understands the 
critical role of 9-1-1 services to the community. We are 
applying improvements and lessons learned from the derecho in 
the D.C. Metro area and in other areas to other areas in our 
service territory as well, so that 9-1-1 services are always 
available whenever needed.
    Thank you. I look forward to answering any questions you 
have.
    [The prepared statement of Mr. Malady follows:]
                   Prepared Statement of Kyle Malady
                           September 12, 2012
    Good afternoon, Mr. Chairman and Members of the subcommittee. I am 
pleased to appear before you today on behalf of Verizon to discuss our 
company's role in the provision of 9-1-1 services, the impact that a 
severe storm had on the 9-1-1 network in northern Virginia in late 
June, the lessons we have learned from that event, and the subsequent 
steps we have taken to further solidify our resilience to natural 
disasters and commercial power outages.
 verizon designs its network to make 9-1-1 service available even in a 
                                 crisis
    Verizon provides service to more than 1,500 9-1-1 call center 
locations (referred to as ``Public Safety Answering Points'' or 
``PSAPs'') around the country. The role of our network is to connect 
callers to the personnel trained to respond to emergency calls in each 
PSAP. Verizon is proud to be a part of the larger 9-1-1 ecosystem, and 
we take very seriously the important role our networks plays in 
ensuring 
9-1-1 services are available around the clock--and, particularly, in 
times of crisis. Accordingly, Verizon designs its network to be fault 
tolerant so that we can continue to provide 9-1-1 services even during 
natural disasters and the commercial power loss and network damage that 
often come with them.
    Our 9-1-1 network designs include multiple levels of diversity and 
redundancy, so that--if a particular call route is not working--we can 
send the call over another route to make sure it gets through to the 
PSAPs. Similarly, Verizon equips its critical facilities with back-up 
power sources, so that--in the event we lose commercial power at those 
facilities--the network will continue operating and callers can still 
place 9-1-1 calls reliably. Specifically, Verizon deploys a combination 
of built-in batteries and generators at critical facilities to support 
operations during a commercial power failure; the batteries provide an 
immediate source of power following the loss of commercial power until 
the generators go on-line (which is designed to occur automatically), 
and then the batteries act as the back-up power source should the 
generators fail.
    In these and other ways, Verizon tries to prepare for all 
reasonable contingencies in its emergency planning to ensure that the 
9-1-1 network is available whenever needed. But emergency preparedness 
is not static; it is an ever-changing and on-going process. So, if our 
systems do not work as planned or if a storm or other event reveals 
opportunities for further improvements, Verizon has been and will be 
proactive in implementing appropriate changes. Verizon recently 
experienced just such an event, and we have learned valuable lessons 
that will allow us to improve our ability to handle 9-1-1 calls and 
serve PSAPs on a going-forward basis, even when we lose commercial 
power to our own facilities.
 the june 29, 2012 derecho and its impact on the 9-1-1 network in the 
                          mid-atlantic states
    Late in the evening of Friday, June 29, 2012, a severe storm hit 
the Mid-Atlantic region with unusually intense straight-line winds. 
This ``derecho'' caused widespread commercial power outages in the 
Washington, DC, Virginia, and Maryland area, and widespread damage to 
Verizon's networks. Indeed, the derecho downed more poles and generated 
more commercial trouble tickets for Verizon than even Hurricane Irene 
did in August 2011. As a result of the derecho, Verizon lost commercial 
power in more than 100 locations.
    At each of these locations, Verizon's emergency back-up power 
systems kicked in, with batteries and nearly all the back-up generators 
working as designed, allowing us to continue service. However, one of 
two back-up generators failed to start at each of the Fairfax and 
Arlington facilities, disabling hundreds of network transport systems, 
and causing Verizon to lose much of its visibility into--or ability to 
monitor--the network in the impacted area.
    While Verizon was able to maintain 9-1-1 service to the vast 
majority of the more than 200 PSAPs it serves across the storm's path, 
these two generator failures caused a loss of 9-1-1 service to four 
PSAPs in northern Virginia. Three of these PSAPs (Fairfax County, 
Prince William County, and Manassas) did not receive 
9-1-1 calls for several hours Saturday, June 30, and the other 
(Manassas Park) did not receive 9-1-1 calls for much of that weekend. 
In addition, a number of area PSAPs (including those four) faced other 
9-1-1-related problems, consisting primarily of a lack of delivery of 
location information on 9-1-1 calls and the loss of administrative and 
back-up phone lines.\1\
---------------------------------------------------------------------------
    \1\ Location information, referred to as Automatic Location 
Identifier (``ALI'') information, automatically provides the PSAP with 
the address of 9-1-1 callers using landlines. Callers can dial 9-1-1 
and reach the PSAP even if the ALI systems are not operating, and the 
PSAP can dispatch the appropriate public safety response. In these 
cases, however, a 9-1-1 call-taker must obtain location information 
from the caller rather than the information appearing automatically. In 
addition, the Arlington County PSAP's regular business lines (which 
could also be used during emergencies) were not working because of the 
problems at the Arlington central office, explained in more detail 
below.
---------------------------------------------------------------------------
   verizon immediately investigated and identified the cause of the 
                        temporary 9-1-1 outages
    Immediately following the temporary loss of 9-1-1 service to these 
four PSAPs, Verizon launched an investigation to determine the cause of 
the outages. Our investigation determined that the 9-1-1 disruptions 
were caused when, following the loss of commercial power, one of two 
back-up generators at each of our Arlington and Fairfax central office 
locations failed to start. Multiple failures cascading from these 
specific generator problems and damage to Verizon's transport network 
combined to cause the outages for the four PSAPs. Included among those 
failures were systems that enable us to monitor the condition of our 
network facilities in northern Virginia, and that loss of visibility 
over our network hindered our initial efforts to assess and repair 
damages.
    Arlington Facility.--The Arlington facility has two generators that 
must operate in tandem to support all of the equipment at the site. At 
10:55 PM on June 29, 2012, the Arlington facility lost commercial 
power. One of the two generators started, but the other did not. The 
single running generator could not support the entire site load, became 
overloaded, and shut down as designed. Back-up batteries served the 
office's equipment into the morning of June 30. A power technician 
arrived at 12:28 AM on June 30, but despite best efforts throughout the 
night, could not get the second generator started. At approximately 
5:00 AM on June 30, the batteries drained completely and network 
equipment failed.\2\ Verizon deployed additional resources, working in 
parallel both to start the second generator and prepare a replacement 
mobile generator. Commercial power was restored at 12:45 PM, before 
those efforts were completed.
---------------------------------------------------------------------------
    \2\ Some network equipment is more sensitive to low voltage and 
failed before the batteries were completely exhausted.
---------------------------------------------------------------------------
    Verizon since has conducted extensive testing using third-party 
experts to determine why the second generator in the Arlington facility 
did not start. We determined that air had entered the fuel system, 
resulting in a lack of fuel in the lines. We have since replaced the 
fuel lines for both of the back-up generators at the Arlington facility 
(even though no leaks were found in the generator that started).
    Significantly, during the period while power was out in Arlington, 
Verizon lost use of its telemetry systems located at that facility, 
which ordinarily allow Verizon to monitor its network and other 
facilities in northern Virginia. When Verizon lost its Arlington 
telemetry systems, it lost its ability to monitor and identify problems 
at other northern Virginia locations, including the Fairfax facility. 
Once power was restored in the Arlington office, we began to regain our 
visibility into the network at large.
    Fairfax Facility.--The Fairfax facility has two generators that 
each support specific components of network equipment in the location 
when commercial power is lost. At approximately 10:35 PM on June 29, 
the Fairfax facility lost its commercial power. One of the generators 
started and supported its equipment as designed. The other generator 
did not start, so back-up batteries served the corresponding equipment 
into the morning of June 30. At approximately 6:15 AM, the batteries 
completely drained and the network equipment in the specific section of 
the facility served by the inoperable generator failed. Throughout this 
period, the other generator supported its network equipment in the rest 
of the building.
    That morning, because we had lost visibility to the network in the 
area, the decision was made to send technicians to various facilities, 
including Fairfax. A central office technician arrived at the site at 
7:30 AM, but did not immediately recognize that one section of the 
facility was not on generator power. At approximately 9:45 AM, the 
central office technician realized there was an issue in one section of 
the building and called for a power technician. The power technician 
arrived at the Fairfax facility at approximately 11:30 AM, investigated 
the power plant, determined that the second generator had failed to 
start, initiated the starting procedures, and brought the generator 
back on manually by 12:15 PM. Verizon immediately started restoring the 
equipment in the office and bringing services back on-line.
    Verizon conducted extensive testing using third-party experts to 
determine why the second generator did not start at this location, 
ultimately concluding that the Fairfax generator did not start because 
the auto-start mechanisms failed. Those mechanisms are designed to 
automatically start the generator once commercial power is lost, but 
they did not operate correctly and since have been replaced.
 as result of the derecho outages, verizon is making several proactive 
  improvements to ensure that 9-1-1 services remain available in the 
                     event of commercial power loss
    In addition to implementing the specific fixes identified above, 
Verizon is committed to making the following additional improvements 
that will minimize the risk of 9-1-1 service disruptions in the event 
of commercial power loss in the future.
    Changes to Address Generator System Failures.--As described above, 
we suffered key generator system failures that were different in each 
of the two locations. The specific failures that occurred at those two 
locations have been repaired, but we are extending our review to other 
critical locations to address any other potential issues. In 
particular, Verizon is conducting back-up power system audits in the 
mission-critical Verizon facilities supporting 9-1-1 in Virginia, 
Maryland, and Washington, DC, and will institute any corrective 
measures identified in those power audits. For example, we have already 
completed the Arlington audit and are instituting an automated controls 
process to prioritize system load shedding (e.g., to support telemetry 
over other, less critical functions) in case one of the two generators 
fails.
    Instituting New Emergency Practices and Procedures.--Our 
investigation determined we could have improved our restoration of 
service had we: (i) Recognized more quickly the partial power outage in 
Fairfax, and (ii) been able to power some network equipment (e.g., 
telemetry systems) on the one generator in Arlington that was working. 
Accordingly, Verizon has developed and posted at each location a set of 
site-specific back-up power system assessment procedures that can be 
used by any employee to determine if there is a loss of power to an 
area of a building. Verizon also is developing and will post at each 
location a site-specific set of procedures on how to manually start a 
generator that does not start automatically and how to transfer certain 
functions from a non-working generator to be powered by a working unit, 
including instructions on how to serve system loads on a prioritized 
basis (i.e., with available power to be used for more critical 
functions first). And, to help ensure that back-up power will work when 
needed, Verizon is enhancing our ``Black Out'' testing at critical 
facilities. Under the new approach, we will continue to test our back-
up power systems regularly (as we have been doing), but will enhance 
this existing testing by including tests for ``failed automated 
controls'' and ``prioritized system load transfer'' scenarios.
    Improvements to Communication and Mobilization.--Verizon has 
maintained a standard practice of internal mobilization to address 
service disruptions or outages based on their actual or potential 
service impacts. This process is triggered by alarms in the system, 
but--in the case of the northern Virginia outages--the loss of 
visibility prevented us from receiving these alarms and, therefore, 
delayed our response. To avoid this issue going forward, Verizon will 
create two new event criteria for notification and mobilization 
purposes. We have enhanced our notification and mobilization procedures 
to trigger activity more quickly when back-up batteries are activated 
or when telemetry is lost. These events now will trigger a response 
that will lead to quicker escalation with greater resources.
    Redesign the Telemetry Systems to Avoid Loss of Visibility to 
Multiple Sites.--As noted above, Verizon's ability to identify and 
address outages was impeded by the loss of telemetry functions at the 
Arlington office. To avoid a similar problem in the future, Verizon 
will redesign its telemetry network to include more diverse connections 
and failover (alternative) locations, so that--if telemetry is 
unavailable at one location--those critical functions can be carried on 
at other facilities.
in addition to internal improvements to address the generator-starting 
   problems, verizon is working with psaps to address psap-specific 
                             routing issues
    As noted above, Verizon's 9-1-1 design provides multiple 
diversities or redundancies ``inside the network.'' There are multiple 
tandem offices providing routing so that, if one fails, the calls to 
the failed office are routed through the other(s). Also, Verizon's ALI 
databases and links to each ALI database are redundant, as are 
Verizon's signaling systems, which route calls to their destinations. 
However, Verizon's analysis of the network impacts following the 
derecho has identified areas for improvement--especially with ALI 
diversity--for certain, specific PSAP configurations. Since those 
specific PSAP configurations are highly sensitive and confidential to 
those PSAPs, and present security issues, they cannot be publicly 
disclosed. However, Verizon is committed to working directly with the 
specific PSAP partners to decide on improvements for their particular 
configurations to minimize the risk of 9-1-1 service disruptions in the 
future.
 verizon is working with the psaps to improve communications during an 
                      emergency or system failure
    Over the past few years, Verizon has established robust processes 
to communicate with PSAPs during an emergency or system failure, 
particularly during high-volume (also known as ``mass calling'' or 
``focused overload'') situations. In fact, Verizon has a large team 
entirely dedicated to communicating with PSAPs. These processes 
generally worked well during the derecho, as Verizon stayed in frequent 
communication with PSAPs during the 9-1-1 outages, including sending 
automatic notifications to PSAPs when certain alarms were triggered. 
But, once Verizon lost its telemetry, we did not have the specific 
information needed by the PSAPs to understand the impact of the event 
and plan for alternatives. Likewise, certain automatic notifications 
that go to PSAPs stopped when the alarms stopped.
    As discussed above, Verizon is redesigning its telemetry systems so 
it can retain its visibility into its network even when telemetry is 
lost at one location, and that will improve the utility of the 
communications with PSAPs in the face of catastrophic failures. But 
there are other ways in which Verizon can improve its communications 
with PSAPs during a crisis.
    The 9-1-1 directors of the city of Alexandria, and the counties of 
Arlington, Fairfax, Loudoun, Prince William, and Stafford have 
recommended that Verizon adopt five steps in response to the storm, 
primarily focused on communications. These recommendations include: (1) 
Adopting and utilizing the National Incident Management System (NIMS) 
model to address and mitigate any and all significant events/incidents 
impacting providing 9-1-1 service; (2) utilizing a system to notify the 
PSAPs, via voice and text, as soon it is known or suspected by Verizon 
that there is or may be an interruption of 9-1-1 service; (3) 
developing a method to conduct a semi-annual drill/exercise on actions 
to be taken in the event of a potential or actual 9-1-1 outage; (4) 
providing a current contact list during the first week of each month 
for the Verizon account manager assigned to each PSAP jurisdiction and 
the four immediately escalating Verizon personnel up to a vice 
president level; and (5) having a Verizon representative be present at 
the jurisdictions' Emergency Operations Center (EOC), to provide 
current, accurate information concerning 
9-1-1 service and outages, other telephone service, etc. and liaison 
with other parties staffing the EOC, when the EOC is activated.
    Verizon believes these recommendations are constructive, and we 
have already taken steps toward working with the 9-1-1 directors to 
most effectively implement these concepts.
verizon is committed to better communication with the public during an 
                               emergency
    Verizon also is committed to improving communications with the 
public during outages. In the future, when we face significant network-
related issues like those caused by the derecho, Verizon will share 
additional information about our restoration efforts more quickly to 
provide greater insight regarding the extent of the impact to our 
subscribers and the expected duration of the restoral efforts. We are 
mobilizing a more robust emergency response communications process to 
ensure that media outlets and other channels are provided relevant 
information on a timely basis.
 verizon also is committed to looking at the next generation of 9-1-1 
                                services
    In addition to looking at issues directly related to the derecho, 
Verizon has commented extensively on the appropriate way to develop 
Next Generation 9-1-1 services (``NG 9-1-1'') at the Federal 
Communications Commission, which has a rulemaking proceeding pending on 
the subject. NG 9-1-1 takes into consideration the evolution of network 
technologies, and contemplates the move to an IP-enabled 
9-1-1 system. Verizon strongly supports a standards-based and efficient 
transition to NG 9-1-1, which must involve more than just PSAPs and 
their 9-1-1 networks if it is to be deployed successfully. Wireline, 
wireless, and VoIP service providers, device and network equipment 
manufacturers, app providers, State and local governments, and 
consumers themselves must be involved if we are to realize the public 
safety benefits of an end-to-end IP-enabled NG 9-1-1 system. Verizon is 
committed to doing its part and is engaged in the development of NG 9-
1-1 standards and products across its business units.
    With the right funding mechanisms, PSAPs could make the necessary 
investments in NG 9-1-1 architecture and provide an overall increase in 
9-1-1 system reliability. The architecture contemplates that all 
critical components would be deployed with no single point of failure, 
and that services are provided in a manner to survive disaster, 
deliberate attack, and massive failure--which would require a redundant 
and geographically diverse design. And full NG 9-1-1 is dependent upon 
end-to-end IP communications, which has the capability to dynamically 
reroute traffic and improve redundancy, and to dynamically re-route 9-
1-1 calls to established back-up PSAPs or even virtual PSAPs that can 
efficiently serve multiple jurisdictions. Still, no network can be 
fully immunized from natural and man-made disasters, so PSAPs will 
still need to incorporate recommendations for reliability and security 
into migration plans as appropriate. Verizon looks forward to working 
with the PSAPs as part of its continued participation in NG 9-1-1 
development.
            verizon has developed text-to-9-1-1 capabilities
    In further recognition of consumers' changing communications 
demands, Verizon Wireless has voluntarily developed an interim SMS-to-
9-1-1 solution to supplement the existing 9-1-1 networks, and we are 
committed to deploying this solution to capable PSAPs beginning in late 
2012 or early 2013. This would allow the public to contact 9-1-1 
through text messaging, providing another means to contact PSAPs during 
an emergency, in addition to voice 9-1-1 calls.
    As a general rule, however, Verizon expects that SMS-to-9-1-1 
communications can be affected by outages in much the same way (and to 
largely the same degree) as voice 9-1-1 calls. That is because the 
interim SMS-to-9-1-1 solutions currently under development all rely on 
existing radio, SMS, and PSAP architecture. Thus, cell site outages 
would affect SMS-to-9-1-1 communications just as they would voice. And, 
within a PSAP's facilities, an outage of the PSAP's network would also 
necessarily affect SMS-to-9-1-1 traffic flowing over that network. By 
the same token, PSAPs also may have limited SMS-to-9-1-1 ``call-
taking'' capabilities. Accordingly, while Verizon has been working on a 
text-to-9-1-1 option, there is a broad consensus that--as the first 
option--users can and should be instructed to make a voice call to 9-1-
1, if possible. Or stated differently, I would caution that we should 
not rely heavily on alternate legacy technologies, such as SMS-to-9-1-
1, as a substantial alternate mechanism of reaching 9-1-1 in 
emergencies. Instead, policymakers at all levels should remain focused 
on the transition to end-to-end IP-enabled NG 9-1-1 services.
                               conclusion
    Verizon understands the critical role of 9-1-1 services to the 
community, and is committed to making improvements to avoid the issues 
that occurred during the derecho and otherwise to ensure that the next 
generation of 9-1-1 services are available to the public. Verizon will 
improve its internal processes and procedures and work directly with 
the PSAPs, as described above, to implement the lessons learned. And we 
will look to apply improvements and lessons learned from the Washington 
metropolitan area to other areas in our service territory as well, so 
that 9-1-1 services are available whenever needed.

    Mr. Bilirakis. Thank you very much.
    Mr. Hall, you are recognized for 5 minutes, sir.

     STATEMENT OF TERRY HALL, PRESIDENT, APCO INTERNATIONAL

    Mr. Hall. Good afternoon, Chairman Bilirakis, Ranking 
Member Richardson, and Members of the subcommittee. My name is 
Terry Hall, and I am the current president of the Association 
of Public Safety Communications Officials, known as APCO.
    I am also the chief of emergency communications for the 
York-Poquoson-Williamsburg Regional Emergency Communications 
Center in York County, Virginia.
    APCO is the world's largest organization of public safety 
communications professionals. It includes members from police, 
fire, emergency medical services, as well as public safety 
answering points and emergency operation centers.
    Thank you for the opportunity to speak with you today about 
the importance of resilient communications.
    Certainly, the need for resiliency was engrained into the 
design of my own communications center in Hampton Roads. I made 
sure to build resilience in the communications center based on 
my years of experience in coping with the loss of commercial 
power and loss of telephone network outages.
    Although highlighted by the recent derecho storm last June, 
outages are not all that uncommon and are also not specific to 
any one telephone company. The public safety community attempts 
to insulate themselves from telephone companies.
    As an example, in York and James City Counties in Virginia, 
we bypassed the telephone network by directly connecting two 
public safety answering points together via our own microwaves 
systems.
    The widespread 9-1-1 disruptions that followed the derecho 
forced APCO members to operate 9-1-1 communication centers 
under very severe and frustrating conditions. Power losses and 
back-up power failures at Verizon contributed to 9-1-1 outages.
    9-1-1 call-takers and dispatchers, in their typical 
professional fashion, acted very appropriately to save lives 
and property using the best information and resources they had 
on hand.
    Nothing unique to the derecho caused the failures at 
Verizon generators. As Verizon reported, one of its generators 
failed due to air in the fuel line, and another failed due to a 
defect in its auto-start mechanism. Thus, as we consider steps 
to make emergency communications more resilient, we must not 
overlook the importance of compliance with existing 
requirements and procedures.
    APCO is a National standards-making body. One of the 
standards we continue to address is network monitoring. 
Verizon's power and back-up power failures should have resulted 
in an immediate alarm and an urgent response.
    Carriers should test their generators and uninterrupted 
power supplies under load conditions regularly, and promptly 
report the test results to the Federal Communications 
Commission, and complete a successful retest if required.
    Further, when systems fail, carriers must immediately 
provide 
9-1-1 centers with meaningful and actionable information.
    APCO looks forward to the deployment of next generation 
9-1-1 technology, which holds great promise to assure a level 
of diverse and redundancy that greatly exceeds current 
capabilities we have in our communication centers today.
    Let me next remark on yesterday's 11th anniversary of the 
events of September 11, and how we remain very appreciative of 
the work of this Congress in passing Public Safety Provisions 
Act of the Middle Class Tax Relief and Job Creation Act of 
2012.
    By sheer coincidence, the statutory deadline for the 
appointments to the Nation-wide governance body established 
under this legislation, called the First Responder Network, or 
FirstNet, fell during APCO's annual conference on August 20.
    We were honored that the acting secretary of commerce, Dr. 
Rebecca Blank, announced the non-Federal board members of 
FirstNet at our conference. The technology that will be 
deployed for public safety broadband network, the public/
private partnerships to come, and the various statutory 
requirements put forth by responsibilities of FirstNet will 
lead to a very highly reliable, secure, and resilient network.
    In sum, APCO looks forward to working with this 
subcommittee and all stakeholders to ensure that public safety 
communications reach a new level of resiliency and 
sophistication.
    Thank you again for the invitation to appear before you. I 
welcome any questions you may have.
    [The prepared statement of Mr. Hall follows:]
                    Prepared Statement of Terry Hall
                           September 12, 2012
    Good afternoon, Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee. My name is Terry Hall and I am the 
president of the Association of Public-Safety Communications Officials, 
International, known as APCO. I am also the chief of Emergency 
Communications for the York County Regional Emergency Communications 
Center in Virginia. APCO is the world's largest organization of public 
safety communications professionals, including members from police, 
fire, and emergency medical services, as well as 9-1-1 public safety 
answering points, referred to as PSAPs, and emergency operations 
centers.
    Thank you for the opportunity to speak with you today about the 
importance of resilient communications for the public safety community. 
This is a timely topic and I'm pleased to see this subcommittee's 
interest in exploring these issues.
    Certainly, the need for resiliency was engrained into the design of 
my Communications Center in York County. I made sure to build 
redundancy into this center based on my years of experience coping with 
the loss of commercial electrical power and telephone network outages. 
As the project manager for the regional public safety radio 
communications system in that part of Virginia, I also am aware of the 
need for highly reliable communications networks that survive natural 
and man-made disasters. My experience with the importance of network 
resiliency and reliability was especially enlightened during my 
deployments as an urban search-and-rescue and disaster medical 
assistance team member following Hurricanes Katrina, Rita, Isabelle, 
and Gustav.
    Although highlighted by the recent ``derecho'' storm last June that 
wreaked havoc in the DC area, 9-1-1 outages are not all that uncommon--
such outages have occurred across the country for decades, with a 
variety of causes, and are not specific to any one telephone company. 
This has led some in the public safety community to attempt to insulate 
themselves as much as possible, as I have done in York County, from 
outages occurring at telephone company facilities that could adversely 
impact 9-1-1 call centers. In York and James City Counties, for 
example, we bypassed the public telephone network by directly 
connecting two public safety answering points for redundancy purposes.
    We applaud the recent efforts of the Federal Communications 
Commission to explore the causes and potential solutions of 9-1-1 
outages. APCO recently filed public comments with the FCC on August 17.
    As APCO pointed out in its comments, the June derecho storms cut 
off electricity to millions, caused substantial property damage, and, 
most regrettably, loss of life. The storms also led to widespread and 
unusually extended disruptions to 9-1-1 service in several areas, 
especially in the northern Virginia suburbs of Washington, DC.
    During and following the Derecho storms, many of APCO's members 
were forced to operate 9-1-1 call centers under severe and frustrating 
conditions. At least a portion of the 9-1-1 outages were a result of 
power losses in Verizon's Central Offices and subsequent backup power 
failures. Despite these adversities, 9-1-1 call takers, in their 
typical professional fashion, acted appropriately to save life and 
property using the best information and resources they had available to 
them at the time.
    It's important to note that while the June 29 derecho was unique in 
its ferocity, nothing unique to the derecho caused the 9-1-1 failure. 
As Verizon reported, one of its generators failed due to air in the 
fuel line; another failed due to a defect in its auto-start mechanism. 
This suggests that as we consider additional requirements and 
procedures to make emergency communications more resilient, we must not 
overlook the importance of compliance with and proper execution of the 
requirements and procedures that are already in place.
    APCO is a National standards-making body in the area of public 
safety communications. These standards address many of the areas that 
governing authorities and call center managers must consider when 
assessing their level of preparedness and survivability against a wide 
range of natural and man-made events. One of the standards addresses 
network monitoring. A failure of power and back-up power at Verizon's 
central office should have resulted in an immediate alarm state at its 
network operations center and should have generated an urgent response 
by carrier maintenance crews and technicians to resolve issues and 
restore generator power. Instead, it seems that Verizon personnel were 
not fully aware of the equipment failures and the subsequent impact on 
9-1-1 call delivery. Therefore, carriers should test their generators 
and uninterrupted power supplies (UPS) under load conditions regularly, 
and report the results of their tests to the FCC's Public Safety & 
Homeland Security Bureau within 3 business days, and complete a 
successful retest if needed and report those results within 24 hours.
    Compounding the impact of the 9-1-1 outages was the lack of outage 
reporting and other communications from Verizon to emergency call 
centers. In critical times of outages when systems fail, it is 
imperative that there be direct contact between emergency call centers 
and an on-call representative of the local carrier. Verizon has 
acknowledged that the normal means of such communication was itself 
disrupted by the outages. 9-1-1 centers need immediate, meaningful, and 
actionable information concerning outages impacting the carriers that 
serve them.
    Carriers should establish hardened and redundant links to 
disseminate outage information to emergency call centers in their 
service areas. They should also utilize and regularly test an emergency 
notification system that would timely notify public safety officials of 
any events that impact the delivery of or ability to make 9-1-1 calls.
    Today's 9-1-1 networks are based upon many decades-old 
technologies, which have their own inherent limitations and challenges. 
Thus, while as mentioned earlier, service providers could implement a 
number of sensible improvements right away to assure better resiliency, 
APCO also looks forward to working with local exchange carriers and 
other 9-1-1 system service providers as Next Generation 
9-1-1 technology is deployed. NG 9-1-1 holds great promise to assure a 
level of diversity and redundancy that greatly exceeds current 
capabilities.
    Let me next remark on yesterday's 11th anniversary of the events of 
September 11, and the transformation in public safety communications we 
are about to witness with enactment of the public safety provisions of 
the Middle Class Tax Relief and Job Creation Act of 2012. We at APCO 
remain very appreciative of the work of this Congress in passing this 
especially important legislation, which will enable the deployment of 
an advanced, public safety broadband network with a Nation-wide level 
of interoperability from the start.
    By sheer coincidence, the statutory deadline for the appointments 
to the Nation-wide governance body established under this legislation, 
the First Responder Network Authority, or ``FirstNet,'' fell during 
APCO's annual conference on August 20. We were honored to have hosted 
Acting Secretary of Commerce Dr. Rebecca Blank at our conference as she 
publicly announced the non-Federal board members. We look forward to 
working with the FirstNet Board to successfully implement the public 
safety legislation.
    Similar to the promise of Next Generation 9-1-1 technology, the 
Long Term Evolution or ``LTE'' technology that will form the basis of 
the public safety broadband network will inherently lead to improved 
resiliencies and redundancies in wireless broadband communications. 
Furthermore, the legislation itself rightly mandates that in carrying 
out its duties and responsibilities, FirstNet is to ensure the 
resiliency of the network. This extends to FirstNet's obligation to 
consult with State and local jurisdictions concerning the adequacy of 
hardening, security, reliability, and resiliency requirements. Finally, 
I am hopeful that with the legislation's emphasis on establishing 
public/private partnerships with a variety of commercial mobile service 
providers, infrastructure owners, and backhaul providers, this too will 
lead to a highly resilient, advanced wireless broadband communications 
network for first responders.
    APCO looks forward to working with this subcommittee and all 
stakeholders to ensure that public safety communications reach a new 
level of resiliency and sophistication.
    Thank you again for the invitation to appear before you, and I 
welcome any questions you may have.

    Mr. Bilirakis. Thank you, sir.
    Mr. Forgety, I apologize for mispronouncing your name 
earlier You are recognized for 5 minutes.

 STATEMENT OF TREY FORGETY, DIRECTOR OF GOVERNMENT RELATIONS, 
             NATIONAL EMERGENCY NUMBER ASSOCIATION

    Mr. Forgety. Thank you, Mr. Chairman and Representative 
Richardson. Thank you to the entire committee for holding this 
hearing on the reliability of emergency communication systems.
    9-1-1 is the critical link between the public and emergency 
respnoders. It is imperative that 9-1-1 systems always work. 
Over the past 44.5 years, 9-1-1 systems and the carrier 
networks that they are based on have served the public reliably 
and well. That is why I believe that, in some ways, 9-1-1 has 
fallen victim to its own success.
    The public and policy makers at all levels of government 
know 9-1-1 as a service that just works, and often fail to 
consider the level of effort it takes to deploy, operate, and 
maintain 9-1-1 systems.
    Over the last 10 years, the Department of Homeland Security 
has expended billions of dollars to improve planning, 
coordination, and equipment for aging land mobile radio systems 
and to transition those systems to broadband technology.
    At the same time, DHS has devoted little time, attention, 
or money to planning for or executing the transition from 
legacy 
E 9-1-1 systems to I.P.-based next generation 9-1-1. NENA is 
very much looking forward to working with DHS to ensure that 
the next version of the now 4-year-old National Emergency 
Communications Plan will devote more than a single vague 
milestone to improvements in 9-1-1 service.
    Despite the lack of attention from the broader homeland 
security enterprise, however, the 9-1-1 community at the local 
and State levels has achieved remarkable successes. Even under 
the extraordinary budget pressures of the last 4 years, States 
like Alabama, Tennessee, Vermont, and Washington have deployed 
NG 9-1-1 systems or precursor networks and technologies, such 
as broadband-based voice over I.P. transport for 9-1-1 calls 
and 
9-1-1 text messaging pilots.
    Similarly, the 9-1-1 community is providing its own support 
for disaster situations by self-organizing teams of 
telecommunicators who can relieve overwhelmed call center staff 
when a disaster strikes.
    Just recently, one of these teams based out of Texas 
relieved telecommunicators at the St. John the Baptist PSAP in 
Louisiana when Hurricane Isaac kept them at their posts for 
more than 40 hours straight.
    Here I would like to commend officials from the DHS 
National Communication System and the National Cybersecurity 
and Communications Integration Center, or NCCIC, for assisting 
that team with access to the affected area and routing support.
    These examples show how States that appropriately use the 
more than $3 billion that consumers are charged each year for 
9-1-1 service are reaping the benefits of their responsibility. 
On the other hand, the lack of support for transitional costs 
associated with the move to more resilient Next Gen 9-1-1 
system architecture, and the continuing diversion by some 
States of 9-1-1 service fees to purposes other than 9-1-1 
system operation or improvement represent key risks to our 
Nation's future security.
    One scenario I think illustrates this point better than any 
other. Everyone here will no doubt recall the failed Times 
Square bombing attempt. Now that terrorist plot was foiled when 
a member of the public saw something suspicious and said 
something to 9-1-1.
    Having 9-1-1 service available makes it possible for the 
public to quickly contact the authorities and for field 
responders to quickly locate the origin of the call and to 
respond effectively.
    Had an NG 9-1-1 system been in place in New York, the 
caller that stopped that attack might have easily supplied 
additional information, such a license plate photograph, that 
might have sped up the response or led to additional 
information about terrorist operatives.
    That brings me to my final point: 9-1-1 represents a 
tremendous source of actionable information for the public 
safety community and the broader Government enterprise, but a 
source that is currently untapped.
    I can't tell you precisely, for example, the number of 9-1-
1 calls that are made on an average day or in an average month. 
The best statistic available, about 600,000 calls per day, is 
compiled by CTIA, the wireless association, on the basis of a 
variety of different sources and a tedious methodology that is 
riddled with extrapolations and assumptions.
    But just as Verizon relies on telemetry from its network to 
ensure that 9-1-1 systems are operating as expected, the public 
safety community and Government officials should be able to 
rely on data from 9-1-1 systems to ensure that those systems 
are operating as expected, and to ensure that the public 
resources are allocated efficiently.
    As the committee considers the future of public safety 
communications, I encourage you to keep in mind the need to 
include 
9-1-1 as a core component of all public safety and homeland 
security planning and improvement efforts, to work toward 
assisting States with cost of transitioning to Next Gen 9-1-1, 
and finally to move swiftly to deploy advanced data collection 
and analytics capabilities to PSAPs and government agencies at 
all levels.
    With that, Mr. Chairman, thank you. I welcome your 
questions.
    [The prepared statement of Mr. Forgety follows:]
         Prepared Statement of Telford E. ``Trey'' Forgety, III
                           September 12, 2012
    Chairman Bilirakis, Ranking Member Richardson, and may it please 
the Committee: My name is Trey Forgety,\1\ and on behalf of the 9-1-1 
Association's more than 7,000 public- and private-sector members, I 
want to thank you for holding this hearing. Providing emergency 
response service is perhaps the core function of Government, and 9-1-1 
is the critical link between the public and emergency responders that 
enables counties and towns to perform that function quickly and 
efficiently. Next year, we will mark the 45th anniversary of the first 
9-1-1 call. As we approach that important milestone, it is entirely 
appropriate that we should confront pressing questions about how our 
Nation's 9-1-1 systems are built and maintained now, how they will be 
designed and operated in the future, and how we can improve and sustain 
the reliability and resiliency of those systems as we transition to 
next-generation IP-based networks.
---------------------------------------------------------------------------
    \1\ I joined NENA: The 9-1-1 Association in 2010 after 2 years as a 
presidential management fellow in the Department of Homeland Security 
(DHS) Office of Emergency Communications. During my fellowship, I 
served temporarily with the Federal Communications Commission's (FCC) 
Public Safety and Homeland Security Bureau and with the Department of 
Commerce's National Telecommunications and Information Administration 
(NTIA). At the FCC, I developed recommendations for the Public Safety 
chapter of the National Broadband Plan. Later, at Commerce, I worked to 
implement the Plan's recommendations as NTIA evaluated applications to 
the Broadband Technology Opportunity Program (BTOP). Both at NTIA and 
DHS, I participated in discussions with senior administration officials 
from the Office of the Vice President, the Office of Management and 
Budget, the Office of Science and Technology Policy, and the National 
Economic Council to develop policies for the deployment of the Nation-
wide mobile broadband network for first responders, now known as 
FirstNet. I hold a Bachelor of Science in Applied Physics and a Doctor 
of Jurisprudence, both from the University of Tennessee.
---------------------------------------------------------------------------
    It is unfortunate, of course, that we must consider these questions 
in the wake of events that have shown us all too clearly the 
vulnerabilities of our existing systems. Damage to network and 
commercial power infrastructure in the wake of the derecho that struck 
the Midwest and the National Capital Region on June 29 of this year 
left tens of thousands of homes, businesses, and wireless subscribers 
without access to 9-1-1 service. As we consider the vulnerabilities 
that led to those outages, however, I believe it important that we keep 
in perspective the purpose of our inquiries: When the safety of the 
public is at stake, we must put aside the temptation to assign blame, 
and focus instead on learning how we can prevent future failures. NENA 
has already engaged with the 9-1-1 community, with the carrier 
community, and with officials from the Federal Communications 
Commission to begin that process. Already, the Commission has issued a 
Public Notice asking important questions about the nature and causes of 
the 9-1-1 outages associated with the derecho. The comments received in 
response to that notice have included a frank and detailed account by 
Verizon of the equipment and procedural failures that occasioned the 
outages, along with robust and well-considered recommendations from 
Fairfax County, Virginia. It will take some time for the affected 
municipalities, the serving carriers, and the broader public safety 
community to fully analyze the causes of these outages. As we continue 
to do so, however, there are a few key lessons that I believe we can 
learn from the derecho and the outages it caused.
    First, extended commercial power outages, whether resulting from 
severe weather or some other cause, are predictable, and carriers and 
public safety agencies responsible for 9-1-1 must both prepare for such 
outages. On the carrier side, this is particularly important for 
facilities that provide 9-1-1 service to Public Safety Answering 
Points. Given the architecture of legacy E 9-1-1 systems, it is 
generally a single Central Office of a single Local Exchange Carrier 
that routes and terminates all 
9-1-1 calls in a relatively large geographic area. This is one of the 
few public safety communications circumstances in which the absence of 
redundant facilities is tolerated, mostly because the cost of providing 
fully redundant 9-1-1 trunks from all End Offices in the served area to 
a redundant Selective Router would be prohibitively expensive. 
Consequently, it is all the more imperative that these non-redundant 
facilities have reliable, frequently-tested sources of backup power, 
and that those sources prioritize safety-of-life systems such as 
selective routing of 9-1-1 calls. Similarly, on the public safety side, 
it is important that Public Safety Answering Points (PSAPs) have 
reliable and frequently-tested sources of back-up power, and that such 
capabilities are consistent across jurisdictions. As things stand 
today, the resilience of 9-1-1 centers is largely a matter of 
jurisdictional accident: Some States manage all 9-1-1 systems and PSAPs 
within their borders, and build-in back-up power capabilities. Other 
States leave system and PSAP management to the discretion of local 
officials, but set mandatory requirements for resilience features such 
as back-up power. Still other States, however, set no standards for the 
construction and operation of PSAPs at all. In those States, the actual 
preparedness of PSAPs for commercial outages can vary to the extreme: 
Some PSAPs will have diverse grid connections, quick-reaction battery 
systems, and stand-by generators to power the entire facility. Others 
may have only short-term battery protection, or, in some cases, no 
protection at all. Given the centrality of 9-1-1 service to public 
safety and homeland security, NENA believes that both the carrier 
community and the PSAP community must ensure that standards are in 
place and followed to keep 9-1-1 service available during predictable 
events like severe weather that deprive their facilities of commercial 
power.
    Second, legacy circuit-switched networks will soon outlive their 
usefulness as the sole platform for providing 9-1-1 service. Over the 
last 6 years, the public safety community, carriers, hardware 
manufacturers, and software developers have worked collaboratively 
through NENA to develop consensus standards for the architecture and 
operation of Next Generation 9-1-1 systems. Next Generation 9-1-1, or 
``NG 9-1-1,'' represents the first fundamental change in public 
communications with public safety agencies since the introduction of 9-
1-1 service decades ago. Rather than relying on specialized and 
expensive-to-replicate facilities in a single carrier's network, NG 9-
1-1 is based on open standards, commodity hardware, and fungible 
connectivity. For example, an NG 9-1-1 PSAP will have the ability to 
procure connectivity from multiple, diverse carriers to increase 
resilience in the face of network failures. Indeed, NG 9-1-1 systems 
can even be offered on a fully-redundant, cloud-hosted basis. This 
change in paradigm will provide the public with several benefits, 
including greater reliability and resilience of 9-1-1 service, an 
expansion of available communications media to include text and video, 
and lower costs of service resulting from competition for hardware, 
software, and connectivity. NG 9-1-1 systems are already being 
deployed, in stages, around the country, but deployment time lines are 
inconsistent from State to State, and even from county to county. In 
some places, it may be a decade or more before the public has access to 
the advanced capabilities of NG 9-1-1. At the same time, funding for 9-
1-1 service, largely a fee-for-service model premised on wireline 
telephone revenues, is undergoing its own radical transition. Wireline 
subscribership continues to fall at a dramatic pace as wireless and 
broadband service replace it in consumer adoption. Not all States have 
prepared for or reacted to this transition, however, and many public 
safety agencies already find themselves underfunded as the user fees 
that once supported their operations dwindle while call volumes remain 
the same or continue to rise. Agencies will also face some additional 
costs as they transition to NG 9-1-1 in order to continue operating 
legacy services and facilities in parallel with Next Generation 
facilities and software until a final cut-over can be effected. This is 
one area where NENA believes a relatively small amount of preparedness 
grant funding could have a major impact on the readiness of key public 
safety services for future natural disasters or terrorist events, and I 
recommend that the committee consider including NG 9-1-1 transition 
work as allowable costs in future rounds of Federal grants.
    Third, the public safety community needs access to analytic and 
visualization capabilities that are now common in the private sector in 
order to leverage the tremendous value of aggregated 9-1-1 data. During 
and after the derecho, for example, there arose significant questions 
and perhaps even disagreements as to precisely when 9-1-1 service 
failed, and precisely when it was restored. Had analytic capabilities 
been in place, however, affected PSAPs could have detected the outage 
quickly as 9-1-1 call volumes deviated from the expected range for that 
date and time. From a preparedness perspective, robust analytic 
capabilities will be key to future improvements in 9-1-1 service as 
they allow 9-1-1 authorities to better match staffing levels to 
expected call volumes, to reduce the instance of over-provisioning in 
circuits or bandwidth used to terminate 9-1-1 calls, and to detect 
service failures such as abnormally-long call ring times or abandonment 
rates. In addition, analytic capabilities will also play an important 
role in prioritizing the use of scarce public resources in the 
improvement of public safety and homeland security response services. 
For example, knowing the percentage of 9-1-1 calls in a given 
jurisdiction that require a response by fire protection services, and 
the type of response at that, will allow municipal officials to make 
better, more informed choices about how to expend taxpayer dollars with 
the greatest effect on taxpayer safety. Without these capabilities, the 
public safety community will remain largely blind to the drivers of its 
costs and largely unable to effectively articulate its impact on safety 
of life and property in data-driven regulatory and legislative 
processes. At the Federal level, analytic capabilities can form a 
powerful tool for situational awareness and response prioritization. 
Near-real-time map-based visualizations, for example, could allow 
coordinating agencies such as FEMA and the FCC to detect incidents as 
they occur and monitor their progress as they expand, contract, and 
change in character. On a Nation-wide basis, NENA estimates that 
deploying analytic and visualization capabilities to 366 metropolitan 
statistical areas would cost less than $20 million in capital 
expenditures, and less than $10 million in annual operating 
expenditures; expanding such capabilities to all 6,000+ primary PSAPs 
would be only marginally more expensive. Given the clear benefits that 
such capabilities can provide in terms of on-going improvements to the 
preparedness and resilience of public safety communications and to the 
broader public safety enterprise, NENA believes that achieving a 
Nation-wide deployment of such capabilities should be a key homeland 
security goal for the next 5 years.
    Providing reliable and responsive emergency communications service 
to the public is the core mission of NENA's membership, and I am 
pleased, Mr. Chairman, that you and your committee have called this 
hearing and allowed me to testify about how we can better do so in the 
future. I believe that significant improvements in the reliability and 
resilience of 9-1-1 service can be achieved over the short term and 
with minimal fiscal impact if only the necessary parties can work 
together with a common goal and a common understanding that 9-1-1 is a 
unique service with unique requirements and a central position in the 
preparedness of our Nation. I look forward to working with you and with 
my counterparts from the carrier community to ensure that those 
improvements are made, and I am happy to take your questions.

    Mr. Bilirakis. Thank you very much.
    Mr. McIntosh, you are recognized for 5 minutes.

    STATEMENT OF CHRISTOPHER I. MC INTOSH, INTEROPERABILITY 
COORDINATOR, OFFICE OF VETERANS AFFAIRS AND HOMELAND SECURITY, 
                    COMMONWEALTH OF VIRGINIA

    Mr. McIntosh. Thank you, Mr. Chairman, Members of the 
committee.
    Eleven years ago yesterday, interoperable communications 
was identified as one of the major areas of public safety that 
required improvement following the attacks of 9/11. 
Communications is the one constant that forms the foundation 
for all other public safety disciplines. It is the bedrock of 
every response plan, the core of every procedure.
    Without reliable communications, effective command and 
control cannot be achieved, critical information cannot be 
passed, and life-threatening developments cannot be shared.
    In the past 11 years, billions of dollars have been spent 
across the Nation, new radio systems have been fielded, 
interoperability has been greatly improved, and the ability of 
our first responders, emergency managers, and homeland security 
professionals to communicate is better than ever.
    We stand at a crossroads, however. Many of those critical 
radio systems procured in the years following 9/11 are becoming 
antiquated. Technology, as is always the case, has continued 
its relentless advance, resulting in the need to perform major 
upgrades to existing systems, or in some cases wholesale 
replacement.
    The increased use of the finite radio spectrum resulted in 
an FCC requirement to narrowband, resulting in the improved 
efficiency in the use of spectrum, but also creating the de 
facto obsolescence of an entire generation of radio equipment.
    Maintenance and sustainment costs for existing systems 
alone cost hundreds of millions of dollars, forcing 
jurisdictions to make tough budgetary choices, often resulting 
in critical systems no longer being supported.
    All of this is occurring while funding levels have fallen 
precipitously. Virginia has seen consecutive 50 percent cuts in 
homeland security grant programs, and has seen the loss of two 
urban area security initiatives. The loss of the Central 
Virginia and Hampton Roads UASIs has resulted in the loss of 
tens of millions of dollars in annual funding.
    Systems built in those areas did not go away, however, and 
are now competing with the rest of the commonwealth for the 
dwindling SHSGP funding stream while their costs are migrated 
to local budgets.
    The invaluable Interoperable Emergency Communications Grant 
Program has also not been funded. This grant provided for the 
planning, training, and exercises of the most important 
component of any communications program, the people. Technology 
is useless without knowledgeable people who know how to use it 
properly, have identified and trained to its capabilities and 
limitations, and have planned and exercised its application in 
numerous settings.
    IECGP also funded many of the State-wide interoperability 
coordinators around the country, whose job it is to focus 
solely on issues surrounding interoperable communications. 
Through the SWICs, States now have State-wide interoperability 
executive committees that pull people from across jurisdictions 
and disciplines, allowing them to work together to solve cross-
cutting communications problems, share lessons learned and best 
practices.
    With the loss of IECGP, these positions and associated 
governance structures are increasingly beginning to fall victim 
to the budget axe.
    Simultaneously, we stand on the verge of a revolution in 
emergency communications. Land mobile radio is becoming 
integrated with voice over I.P. Virginia operates the largest 
voice over I.P. public safety radio network in the country. 
Soon in Virginia, any laptop, tablet, or smartphone in the 
hands of a public safety professional will become a radio 
capable of communicating all across the State.
    All of these capabilities, indeed our entire path forward, 
rely on reliable connectivity. The events of the derecho storm 
at the end of June 2012 demonstrated how vulnerable public 
safety networks are to saturation, degradation, or destruction. 
The loss of a couple of key facilities resulted in a cascading 
failure that affected millions of people's potential safety and 
security.
    In the wireless world, the rising popularity of smart 
devices has created a demand for bandwidth that threatens to 
overwhelm the entire public safety network when an incident 
occurs, including text message-based alerting systems.
    Public safety broadband offers a solution to address many 
of the connectivity issues faced by public safety. Its 
advocates cite the need of first responders and public safety 
professionals to have unfettered access to wireless 
communications.
    We agree, but don't think the dialogue to date has been 
broad enough. Public safety broadband also provides the 
opportunity for public safety to implement a terrestrial 
network, linking PSAPs, EOCs, and critical infrastructure 
facilities in a secure and reliable manner, free from the 
demands and limitations of the internet.
    The challenge lies in making all of this a reality in the 
current fiscal environment. As noted above, the commonwealth 
and many other States' public safety communications budgets are 
stretched to the breaking point. After conducting an informal 
poll with localities within Virginia, where we asked how much 
they could afford, the response was almost universally, if it 
costs more than my cell service does now, we can't do it.
    Virginia is a commonwealth made up of 135 jurisdictions. 
They are all sovereign and they all have their own competing 
budgetary requirements. It is only through getting these 
jurisdictions to work together that we will achieve a 
successful program implementation.
    The existing State-wide interoperable executive committees 
have been the laboratories for this approach. Their success is 
evidenced by their existence in every State in the Nation.
    Congress should recognize the assigned spectrum has value 
to States. States should be free to use it to generate revenue. 
Given the current fiscal environment, it would be irresponsible 
and inadvisable for the commonwealth or any other State to 
enter into a project as expensive, far-reaching, and mission-
critical as public safety broadband without having adequate 
funding mechanisms in place.
    Virginia is committed to this path. I stand to answer any 
questions.
    [The prepared statement of Mr. McIntosh follows:]
             Prepared Statement of Christopher I. McIntosh
                           September 12, 2012
    Eleven years ago yesterday, interoperable communications was 
identified as one of the major areas of public safety that required 
major improvement following the attacks of 9/11. Communications is the 
one constant that forms the foundation for all other public safety 
disciplines; it is the bedrock of every response plan, the core of 
every procedure. Without reliable communications, effective command and 
control cannot be achieved, critical information cannot be passed, and 
life-threatening developments cannot be shared. In the past 11 years, 
billions of dollars have been spent across the Nation, new radio 
systems have been fielded, interoperability has been greatly improved, 
and the ability of our first responders, emergency managers, and 
homeland security professionals to communicate is better than ever.
    We stand at a crossroads, however. Many of those critical radio 
systems procured in the years following 9/11 are becoming antiquated. 
Technology, as is always the case, has continued its relentless advance 
resulting in the need to perform major upgrades to existing systems, or 
in some cases wholesale replacement. The increased use of the finite 
radio spectrum has resulted in the FCC requirement to ``narrowband'', 
resulting in improved efficiency in the use of radio spectrum, but also 
creating the de facto obsolescence of an entire generation of radio 
equipment. Maintenance and sustainment costs for existing systems alone 
cost hundreds of millions of dollars, forcing jurisdictions to make 
tough budgetary choices, often resulting in critical systems no longer 
being supported.
    All of this is occurring while funding levels have fallen 
precipitously. Virginia has seen consecutive 50% cuts in State Homeland 
Security Grant Programs, dropping from $18 million in 2010 to less than 
$5 million in 2012. Historically, almost 30% of this funding has gone 
to support and maintain our communications programs. In 2011 alone, the 
Commonwealth received $43 million in requests from localities for 
communications grant funding, and was only able to allocate $2 million, 
resulting in many necessary projects going unfunded. Virginia has also 
seen the loss of two Urban Area Security Initiatives (UASIs). The loss 
of the Central Virginia and Hampton Roads UASIs resulted in the loss of 
tens of millions of dollars in annual funding. Systems implemented in 
those areas did not go away, however, and now must compete with the 
rest of the Commonwealth for the dwindling SHSGP funding stream while 
their costs are migrated to local budgets. The invaluable Interoperable 
Emergency Communications Grant Program (IECGP) has also not been 
funded. This grant provided for the planning, training, and exercises 
that improved the capabilities of the most important component of any 
communications program, the people. Technology is useless without 
knowledgeable people who know how to use it properly, have identified 
and trained to its capabilities and limitations, and have planned and 
exercised its application in numerous settings. IECGP also funded many 
of the State-wide Interoperability Coordinators (SWICs) around the 
country, whose job it is to focus solely on the issues surrounding 
Interoperable Communications. Through the SWICs, States now have State-
wide Interoperablility Executive Committees (SIECs) that pull people in 
from across jurisdictions and disciplines, allowing them to work 
together to solve cross-cutting communications problems, share lessons 
learned and best practices, and write strategic plans that shape a 
common direction forward. With the loss of IECGP, these positions, and 
the associated governance structures, are beginning to fall victim to 
the budget axe.
    Simultaneously, we stand on the verge of a revolution in emergency 
communications capabilities. Traditional Land Mobile Radio systems are 
beginning to become integrated with Voice over Internet Protocol (VoIP) 
technologies. By fusing voice communications with internet 
technologies, a whole new world of possibilities is becoming a reality. 
Virginia operates one of the largest Public Safety VoIP networks in the 
Nation which, by the end of calendar year 2012, will have points of 
presence in 122 jurisdictions, as well as the Virginia State Police, 
Department of Transportation, and Department of Emergency Management. 
The Commonwealth's Link to Interoperable Communications (COMLINC) 
program allows different radio systems to be linked together, much in 
the way that other radio gateways do, resulting in interoperability 
through the creation of a ``patch'' by an operator in a Public Safety 
Answering Point (PSAP). The true potential of COMLINC, when fully 
implemented, lies in its VoIP functionality. Soon, any laptop, tablet, 
or smart phone in the hands of a public safety professional will become 
a radio capable of communicating with any PSAP in the State, or any 
responder on a radio connected to it.
    Due to this advancement, interoperable communications no longer 
involves just voice and radio systems. We are entering an era where 
interoperable information is the goal. Advances in Computer Aided 
Dispatch (CAD), Crisis Management, VoIP, video, and Geospatial 
Information Systems (GIS) allow for the sharing and display of 
information that allows decision makers and responders to have 
previously unheard of levels of situational awareness. Using the common 
denominator of location, the ability to merge real-time information 
such as CAD, weather, sensor data, video, and Crisis Management reports 
with mapping systems and plan overlays allows personnel, from the 
tactical to the strategic, to have a better understanding of a given 
situation, presenting information in context that is critical for 
effective decision making. For example, a large hazmat on the highway 
is one thing, but a large hazmat on the highway upwind from a county 
fair in a neighboring jurisdiction is something else entirely. The 
integration of COMLINC and its VoIP functionality now allows not only 
the rapid understanding of the true severity of a situation, but also 
allows for the interaction of decision makers through the same 
interface. Potentially, the days of a journal full of usernames and 
passwords, hopping from system to system searching for tidbits of 
relevant information, will be a thing of the past. Virginia has 
recently completed a pilot project in the Charlottesville/Albermarle 
region that demonstrated that this is possible today. We are following 
that pilot up with another in Hampton Roads that kicks of this month, 
with the goal of realizing a State-wide information sharing capability 
by the end of next year.
    It is important to note that we are not doing this in a vacuum. 
Virginia along with Oregon and California initiated a National 
Information Sharing Consortium (Consortium) in order to share 
technology and best practices which will enable State and local 
agencies across the country to work in tandem towards these goals which 
we all share. Through the Consortium, which is growing daily, we will 
be able to leverage one another's experiences so that we, as a 
community, don't repeat costly mistakes over and over again. 
Additionally, we are also working closely with the DHS Science and 
Technology First Responders Group (FRG) and its Office of 
Interoperability and Compatibility (OIC) who are providing us critical 
assistance in assessing and working through the issues with the new 
generation of technologies that can facilitate achieving these goals 
such as shared services in ``the cloud'' and various ``bridge'' 
technologies. Taken together all of this will enable us to create a 
true ``Virtual USA'' enabling intrastate and interstate 
interoperability and will serve as the roadmap towards making use of 
the new broadband capabilities when they reach fruition.
    All of these capabilities, indeed the entire path forward, rely on 
reliable connectivity. The events of the derecho storm at the end of 
June 2012 demonstrate how vulnerable public safety networks, where they 
exist, are to saturation, degradation, or destruction. As the derecho 
showed, the loss of a couple of key facilities can result in a 
cascading failure that affects millions of people's potential safety 
and security. In many cases, public safety responders rely on the 
public network for mission-critical communications. This is especially 
true in the wireless world, where the rise in popularity of smart 
devices has created a demand for bandwidth that threatens to overwhelm 
the entire network when an incident occurs. According to the 
President's Council of Advisors on Science and Technology's report 
entitled ``Realizing the Full Potential of Government-Held Spectrum to 
Spur Economic Growth'', the amount of wireless data transmitted from 
smart phones and wirelessly connected tablets has doubled every year 
for the last 4 years. We saw this scenario realized during the recent 
earthquake in central Virginia. When the shaking stopped, most people 
picked up their phones to call a loved one, text a friend, or post on a 
social media site. This spike in volume resulted in the inability of 
the public safety community to communicate via wireless network, both 
with each other and with the public. Text message-based alerting 
systems were rendered useless, as the networks that they are dependent 
upon were so overwhelmed by traffic that texts didn't get through for 
up to 30 minutes, if at all. Phone calls were pointless, emails were 
spotty.
    The problem isn't limited to the wireless world. We are 
increasingly reliant on the internet itself for communicating critical 
information. Everything from accessing the latest weather to requesting 
assistance now flows on the web, the same web that you or I use at 
home. Bandwidth in the terrestrial network is a finite resource, 
subject to the similar loading demands as the wireless network. In 
Virginia, we have experienced degradation in our capability to use web-
based information during several large-scale events. During tropical 
storm Hanna, the prevalence of teleworkers in the Richmond area 
resulted in difficulty in obtaining critical weather information from 
the National Weather Service website. Ironically, my mom, at home in 
another part of the State, had no trouble whatsoever accessing the same 
information that I was struggling to get at the State EOC. 
Unfortunately, there is currently no way for public safety to 
prioritize traffic on the public internet.
    Public Safety Broadband offers a solution that addresses many of 
the connectivity issues faced by public safety. Its advocates cite the 
needs of first responders and public safety professionals to have 
unfettered access to wireless communications in order to improve their 
ability to respond to incidents safely and effectively. I couldn't 
agree more, but I don't think that the dialogue to date has been broad 
enough. Public Safety Broadband also provides the opportunity for 
public safety to implement a terrestrial network, linking PSAPs, EOCs, 
and critical infrastructure facilities in a secure and reliable manner, 
free from the demands and limitations of the public internet. This 
network is necessary to support programs such as VoIP communications, 
GIS-based information sharing, and Next Generation 9-1-1 routing. It 
would allow for the consolidation of PSAPs, the rerouting of volume 
around failures, the use of improved situational awareness tools, and 
the ability for the public safety community to depend on data-based 
communications unlike ever before. In short, it could change the entire 
landscape of the discipline.
    The challenge lies in making all of this a reality in the current 
fiscal environment. As noted above, the Commonwealth's (and many other 
States') public safety communications budgets are stretched to the 
breaking point. After conducting an informal poll with the localities 
within Virginia in which we asked how much they could afford to 
contribute towards the operation of a Public Safety Broadband network, 
the almost universal response is ``if it cost more than my cellular 
service costs now, we can't do it''. Virginia is made up of 135 
jurisdictions, each with its own sense of budgetary priorities and 
fiscal demands. Since Virginia is a Commonwealth, each one of those 135 
jurisdictions is also sovereign, free to make their own financial 
decisions. This governance model is replicated in some form or fashion 
across the country, and in over 11-plus years of focusing on 
interoperability programs, what we've learned is that it is only 
through the establishment of mutually beneficial partnerships, creating 
a ``coalition of the willing'' that respects jurisdictional 
independence, is a successful model for implementing interoperability 
programs achieved. The existing State-wide Interoperability Executive 
Committees have been the laboratories for this approach, and their 
success is evidenced by their existence in every single State in the 
Union.
    While no one can argue the need for broadband, the implementation 
of it has been the subject of much debate. It is only through a 
partnership between the States and localities, their existing 
governance structures, and the recently appointed ``FirstNet'' board 
that the program will be successful. In this context, the fact that 
there is not a single current State employee included in the recently 
announced FirstNet board appointments is of concern.
    FirstNet, with all the best intentions in the world, cannot be 
expected to understand each State's unique circumstances and needs. 
That is why National interoperability should be the task they focus on. 
There is a real urgency in many States to get communications resources 
up and running as soon as possible. As such, States should be allowed 
to proceed immediately with their plans, as long as they are 
interoperable with the Nation-wide network and meet minimum technical 
standards, and build their networks ahead of FirstNet. This is also 
true of all major cities, but especially true of Washington, DC. This 
can be allowed under the ``special consideration . . . to areas with 
unique homeland security requirements''. Major cities typically 
represent the greatest threat from a terrorism and homeland security 
perspective and therefore need to have their communications networks up 
and running as a matter of priority.
    Congress should recognize that the assigned spectrum has real value 
to States for their public safety communications mission and as a 
revenue generator. This revenue should flow straight to the States to 
fund their respective public safety communications missions, and an 
arrangement met for States to contribute from any surplus revenue to a 
FirstNet fund for the National interoperability mission. This should be 
the result of partnership between the individual States and FirstNet, 
where States operate within a framework developed by FirstNet, but 
create partnerships with its jurisdictions and surrounding States to 
create coalitions of the willing that are able to work together to 
solve the myriad of implementation issues that will inevitably arise, 
at the correct geo-political level. States must also be allowed, within 
the interoperable requirements established by FirstNet, to pursue every 
technical means available, including those cited in the Presidents 
Panel report, to ensure that the spectrum is used as efficiently and 
effectively as possible. They must also be allowed to follow their 
codified procurement procedures that are designed to ensure that 
competition between vendors is maximized, resulting in reduced cost. 
The conversation surrounding broadband governance must not be allowed 
to devolve into an increasingly polarized discussion surrounding the 
``opt-in vs. opt-out'' issue, usually driven by those without 
experience in managing the challenging interests of local, State, and 
Federal communications stakeholders.
    Congress should be aware that even though the opt-out provision is 
in legislation, it seems that there has been an active effort to 
``discourage'' it. This risks interfering with the will of Congress. 
This is manifest in a number of ways, some subtle, some more blatant, 
and serves only to increase the tension of the conversation. ``Opting 
out'' is an explicit State's right, as in the end they cannot and will 
not be forced to participate in a costly program that obligates State 
funds should they choose not to. In many cases (such as in a 
Commonwealth), ``opting out'' may be a local right as well. In order to 
be successful in achieving our combined goal of a Nation-wide 
interoperable broadband capability for public safety, a successful 
model must be developed that falls somewhere in between the extremes 
``opt in vs. opt out'', focusing on a sense of cooperation and problem 
solving that can result in an evolutionary leap forward in 
communications capabilities while providing adequate fiscal protection 
for its participants. Any other approach threatens alienating critical 
partners and fails to take into consideration each jurisdiction's 
unique and specific needs, potentially resulting in that jurisdiction 
being forced to ``opt out'', the very scenario we all wish to avoid.
    Given recent events, it would be both irresponsible and inadvisable 
for the Commonwealth, or any other State, to enter into a project as 
expensive, far-reaching, and mission-critical as Public Safety 
Broadband without having adequate funding mechanisms in place. We 
cannot assume that Federal funding will be available in perpetuity. We 
must, up-front, ensure that the business model is in place that permits 
the network, its operation and maintenance, and the planning, training, 
and exercising that are going to be necessary to efficiently use it to 
be adequately and reliably funded.
    This is not a simple or easy path, but Virginia is committed to 
this course because we strongly believe this ``convergence'' of voice 
and data communications is the future. Given the current budget 
environment, we also believe it is important that Federal, State, and 
local efforts are in alignment, working together efficiently towards a 
common goal. We are watching carefully the direction that FirstNet and 
other Federally-supported efforts are taking, hoping to join them in a 
spirit of cooperation and openness. In this we can use your help. You 
can help us by putting the safeguards in place to make certain that 
these efforts are driven by the needs of States and localities, as well 
as making certain that the funding that you provide helps us to achieve 
those crucial goals. We look forward to working with you on these 
efforts.

    Mr. Bilirakis. Thank you very much. Thank the panel for 
their testimony. I will recognize myself for 5 minutes. I will 
try not to take 5 minutes, though, because I know we are in the 
interests of time.
    Mr. Hall, APCO's former president was a signatory to a 
letter to Secretary Napolitano earlier this summer expressing 
concern about the potential impacts of a merger of OEC and NCS 
on OEC's State and local public safety communications focus. I 
share those concerns, as you know.
    Has APCO received a response from DHS with regard to this 
letter? If so, has DHS expressed a willingness to work with 
APCO and other first responder organizations to ensure OEC's 
mission is not diminished?
    Mr. Hall. Yes, sir. We have received a response. We have 
had several meetings as a result of that. We have great 
dialogue moving forward. Our concern was that we keep those 
projects and programs going, such as NPSTC and SafeCom and a 
lot of the forward momentum we have for interoperability.
    We believe that they are going to work with us on that. We 
feel very positive. Yes, sir.
    Mr. Bilirakis. That is good. Very good.
    Okay, Mr. Malady, my last question, I want to thank you for 
your very candid testimony about the issues at Verizon that 
caused the PSAP outages, and your willingness to work with 
PSAPs to avoid any similar issues in the future.
    To the point, you noted in your statement that you are 
working with 9-1-1 directors to implement a number of 
recommendations they made to you. Can you elaborate on the 
status of your efforts?
    Mr. Malady. Thank you, Mr. Chairman. You know, it is our 
responsibility to find out what we can here and make all the 
corrections that we can to make this more resilient. I 
appreciate your comment.
    As far as the working with the PSAPs, especially around 
communications, one of the first things that the PSAPs in 
Northern Virginia who were affected by this came to us and 
said, you know, we need to do a better job of communicating 
between each other.
    They made five specific suggestions, one of which is the 
ability to communicate multimodal. So right now, we have spent 
a lot of time and effort working out a system where we send 
them emails when we have issues or we will pick up a telephone.
    But now we are putting in systems. We have actually 
selected a system and are trialing it right now that will give 
us the ability to communicate with PSAPs via emails, text 
messages, automated phone calls, and other sorts of 
communication ways, so we can always alert them of what is 
happening.
    Another one is getting an escalation procedure in place, so 
that every single month we give them a list of the escalation 
procedures, with the names and numbers of people, all the way 
to vice presidential level in our company, so they can always 
have someone to talk to and they can escalate as needed.
    So those are a couple of the different things that we have 
worked on with them and we are instituting now.
    Mr. Bilirakis. Very good. I yield back the balance of my 
time.
    I am going to recognize the Ranking Member, Ms. Richardson 
from California, for 5 minutes.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    First of all, Mr. Hall, in your testimony today and in your 
comments to the FCC, you provided detailed insight into how 
private carriers can improve resilience of the 9-1-1 network.
    How would you suggest that those private carriers 
prioritize the improvements to the network that you have 
recommended?
    Mr. Hall. I would say that the very first in the 
communications directly with the PSAP. Running a PSAP myself 
and listening to those comments from the folks in Northern 
Virginia, being able to have a two-way dialogue was very 
important.
    When we receive emails and e-blast and so on, that is very 
good. But if we have questions, we need the correspondence to 
be two-way. I will say that in recent months, being a Verizon 
customer myself, we have actually seen the escalation list and 
the two-way communications that Verizon is speaking about now.
    So they have implemented those. We are seeing some positive 
immediate changes as a result of that.
    But two-way communications.
    Ms. Richardson. Okay.
    Mr. McIntosh, in your testimony, you indicated that the 
Federal Government is not doing enough to discourage the States 
from opting out of the Nation-wide Public Safety Broadband 
Network.
    Can you describe the incentives the Federal Government 
might implement to entice States to participate in the 
FirstNet, instead of building their own networks?
    Mr. McIntosh. Yes, ma'am. The issue here is the success and 
failures, as far as the States are concerned, in building the 
broadband network lies in the fiscal burden that that bears. 
Partnering with States so that States can explore other means 
of generating revenue to offset operating and maintenance costs 
for the operation of the network is critical.
    Just some quick math; the average price point that we have 
seen in other similar networks operating across the country, 
for the Virginia State Police alone to have enough subscribers 
for them to use the network, it would cost the commonwealth 
approximately $4 million a year. That is for one agency.
    So we are obviously very concerned about taking an unfunded 
financial burden, with full understanding that Federal funds 
may not be available in perpetuity, and the commonwealth and 
the localities within it may have to take over that burden.
    Ms. Richardson. Thank you.
    Mr. Forgety, regarding 9-1-1 user fees, are you aware of 
how many States dedicate all their 9-1-1 user fees to advance 
9-1-1 technology?
    Mr. Forgety. Representative, I don't have in front of me 
the specific figures. I can tell you that there are two sources 
for that information of varying quality.
    First of all, I believe it is a semi-annual report by the 
FCC on States that have diverted 9-1-1 funds to other purposes. 
That was required, I believe, under the Net 9-1-1 Improvement 
Act back in 2008.
    That report is very valuable, but it is limited because it 
relies on States to self-certify whether or not they have 
diverted funds to improper purposes. So in some cases, what we 
have seen is States will actually use 9-1-1 funds for some 
other purpose and yet still certify that they are using those 
funds as they have told the public they will.
    In the recently passed Next Generation 9-1-1 Advancement 
Act that was part of the Middle Class Tax Relief Act, there was 
actually another report authorized out of the GAO that is 
supposed to look at primary source material to determine 
whether States are, in fact, using 9-1-1 fees for the purposes 
which they have advertised, essentially.
    Ms. Richardson. Thank you.
    With that, I yield back.
    Mr. Bilirakis. Thank you. Thank you.
    I will recognize Mr. Marino from the State of Pennsylvania. 
You are recognized for 5 minutes, sir.
    Yes, okay. All right.
    Ms. Hochul from New York, you are recognized for 5 minutes.
    Ms. Hochul. Thank you, Mr. Chairman.
    One thing that troubles me, and I am impressed with the 
progress that has been made, but, you know, we don't have to go 
back as far as Virginia Tech. I had a situation in my own 
district where there was a gun that went off in a high school. 
Fifty students in a lock-down situation thought they were 
texting 9-1-1 for help.
    I find it hard to believe it is 2012 and we haven't 
overcome the barriers to make that happen. We have a whole 
generation of young people. I got to tell you how often I text. 
In fact, I couldn't talk to my teenagers unless I learned how 
to text.
    So we are, in my judgement, so far behind the curve on 
where this country is on this. So I appreciate all the efforts 
that you have made with two-way communication. I am impressed 
with all that.
    But what are the barriers? I introduced a bill called the 
Alert Act, after hearing this story in my district. It would 
have communication providers have to give an error message, at 
least, send something back so someone knows it didn't go 
through, because these kids all think help was coming as a 
result of their efforts.
    So I am not sure if my bill is going to pass. But can't the 
communications community on their own take steps to make sure 
that that is occurring? At least I would like to make it be--I 
would like to have it occurring. I would like to have the 9-1-1 
texting receive, people can send pictures of an accident. You 
get a lot more information. It would be incredibly valuable.
    But in the mean time, can't people at least get an error 
message from their communications company, at least telling 
them that no one receives this; you better pick up a phone or 
something? So are we getting any closer to that? Because that 
is a huge problem, in my mind. It would be a dramatic 
improvement in our public safety if we could accomplish that 
sooner than later.
    Throw that out to everybody.
    Mr. Malady. So as the gentleman from the FCC stated 
earlier, we are in the early days now of the ability for folks 
to text 
9-1-1 at Verizon. I can't speak for everybody else. I am going 
to be honest with you. I am not the expert on this particular 
subject.
    But we have been in trials. He alluded to a trial in 
Vermont, where a life was saved and also a text was sent about 
a domestic violence incident, and the text went through and the 
first responders came and broke that up.
    So that is all good. We are testing it in a couple other 
jurisdictions. We are at the forefront of this. We are rolling 
this out. We do think it is a good idea.
    In our particular implementation, we are sending back, in 
certain circumstances, the notice to a person that your text 
did not go through. But I can't talk about what there might be 
limitations at a PSAP level, or there might be other 
limitations in other carriers' networks that don't allow them 
to do that.
    I am not the right person to really to comment on that. I 
don't have the expertise.
    Mr. Hall. Terry Hall with APCO. I will respond as well. 
Running a PSAP, we are getting ready to undertake a program to 
be one of the early adopters with a very large local exchange 
carrier and wireless carrier to take text to 9-1-1.
    The biggest challenge that we have are some of the things 
that you have already addressed, as well as is this at a new 
language? Is it going to overwhelm us? Are we going to be able 
to track these calls?
    So it is very important that these early adopters get out 
there and do some best practices and some benchmarking. In my 
own PSAP, we had to form a workgroup to talk about what are 
their fears. Their biggest fear was we have 30-plus-year-old 
people who are going to be dealing with people that have 
another language than we are used to.
    So we developed a dictionary, if you will, to put out at 
each one of the consoles, to understand what is coming in. The 
vendor that we are working with has assured us that if we 
become overwhelmed, we are going to be able to log off, and 
that they will receive information on their cell phone that 
texting is not available and that they need to contact 9-1-1 
via a landline or a voice dial.
    So it is a work in progress.
    Mr. Forgety. I will follow that up with a couple points. I 
think we have seen significant action by the carrier community 
over the past year. There have been major announcements from 
Verizon and more recently from AT&T of Nation-wide SMS or text, 
more generally, deployments to 9-1-1 that overcome some of the 
limitations we have previously seen, including latency and 
location determination.
    We have also seen action out of the FCC, in particular 
asking questions about how we can get to a state where, at the 
very minimum, someone in an area where text to 9-1-1 is not 
supported will receive precisely the kind of error message that 
you are talking about, and such that we will have text 
capabilities that work both for the consumer and for public 
safety, using either existing equipment or reasonably available 
equipment.
    Ms. Hochul. Thank you. I have one more question after the 
next one, but----
    Mr. McIntosh. I have nothing to add.
    Ms. Hochul. Okay. Thank you.
    Very quick question: I come from a State where counties are 
diverting 9-1-1 funds. This is something I hear from my 
sheriffs. They are not happy about it. I don't know what 
authority is available to make sure that it is being put in 
place. In fact, I suspect if the money was being used 
appropriately for 9-1-1 purposes, there would be more resources 
available for my local PSAPs to be able to implement the 
technology they need to accept a 9-1-1 text.
    So it is something I am also--I appreciate your questions 
on that. It is something I am concerned on. I want to see those 
reports on what consequences there are to States that are 
diverting it inappropriately.
    Thank you, Mr. Chairman. Yield back the balance of my time.
    Mr. Bilirakis [continuing]. Witnesses for their valuable 
testimony. Thank you for your patience as well. The Members for 
their questions. The Members of the subcommittee may have some 
additional questions for you. If you would respond in writing, 
we would appreciate it very much.
    The hearing record will be open for 10 days. Without 
objection, the subcommittee stands adjourned. Thanks so much.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Question From Chairman Gus M. Bilirakis for David S. Turetsky
    Question. Could you please discuss how the Commission worked with 
the Federal Emergency Management Agency (FEMA) in responding to the 
communications outages caused by the June derecho?
    Answer. Immediately following the derecho, FCC staff contacted the 
FEMA Region III, Regional Emergency Communications Coordinator (RECC), 
and FEMA Headquarters to provide information about the status of 
communications in the National Capital Region and West Virginia, and to 
determine if FEMA required the deployment of the FCC's staff and Roll 
Call capability. Under Roll Call FCC teams use equipment to identify 
which public safety systems are not working to prioritize recovery 
needs. FCC remained in constant contact with the FEMA Region III RECC 
over the next several days providing twice-daily updates on 
communications restoration. In addition, FEMA asked the FCC to gather 
information and report on the operation of telecommunications services 
for the affected counties in Virginia, West Virginia, Maryland, and DC. 
FCC contacted communications service providers and gathered this 
information from communications service providers and reported it to 
FEMA from June 30 to July 4.
 Question From Ranking Member Bennie G. Thompson for David S. Turetsky
    Question. Recent emergency response events have again reinforced 
the need to reach as many citizens as possible with emergency alerts. 
The Commercial Mobile Alert System should be an effective way to reach 
large portions of the population.
  <bullet> Currently, how many wireless carriers that have opted into 
        the CMAS program are capable of providing CMAS alerts? [If not 
        100%] What is the hold-up? Are delays being experienced with 
        the FCC, DHS, or FEMA?
    Answer. Based on our records, 74 wireless carriers have opted in to 
provide CMAS alerts. Under our rules, carriers that have opted in were 
required to deploy CMAS by April 7, 2012. Our understanding is that 
most wireless carriers that opted in, including the four major Nation-
wide carriers, have done so and are in fact currently delivering CMAS 
alerts to subscribers. In order to deploy CMAS, however, carriers first 
must be authorized by FEMA and DHS to connect to FEMA's Integrated 
Public Alert and Warning System (IPAWS) gateway. This requires that the 
carriers, FEMA and the DHS complete Memoranda of Agreement and 
Interconnection Security Agreements, and then test the gateway 
connection. According to FEMA, once a carrier has initiated the 
process, it takes approximately 4 weeks to complete. It is our 
understanding that most carriers that have opted in have obtained their 
connection while others are in the process of completing the FEMA 
authorization process.
  <bullet> Understanding that all wireless consumers, especially in 
        rural or lower-income areas, may not have the latest smartphone 
        that is capable of receiving cell broadcast alerts, can you 
        confirm that the use of applications to provide CMAS alerts to 
        a larger population is compliant with the technology-neutral 
        directives of the program?
    Answer. Consistent with the WARN Act, the Commission's CMAS rules 
contain specific performance requirements that handsets must meet in 
order to be CMAS (or WEA) capable. The Commission adopted these rules 
in a technologically neutral manner so that individual carriers and 
handset manufacturers can provide CMAS-capable handsets using a wide 
range of handset technologies and at a wide range of price points, from 
high-priced smart phones to fully subsidized feature phones. Since the 
launch of the program in April 2012, participating wireless carriers 
have made available a wide range of devices, not limited to smart 
phones, that support CMAS alerts and which are compliant with FCC 
rules.
    The Commission does not mandate particular telephone technologies, 
nor does it mandate that any individual wireless carrier provide 
inexpensive wireless telephones to its customers. Further, the 
Commission's CMAS rules do not address ``applications'' supplied by 
third parties and purporting to support CMAS alerts. Rather, CMAS 
technology is resident in each handset's wiring and software.
    Lists of compliant handsets can be found on individual wireless 
carrier websites, and are compiled by CTIA here: http://www.ctia.org/
consumer_info/safety/index.cfm/AID/12082.
    Regarding handset availability, we are aware of at least one rural 
carrier that alleges that it has not been able to obtain CMAS-capable 
handsets for its customers, and are working with FEMA and the wireless 
industry to ensure that the smaller and rural wireless providers have 
access to CMAS-compatible handsets equal to that enjoyed by the large 
carriers.
Question From Chairman Gus M. Bilirakis for Telford E. ``Trey'' Forgety
    Question. Mr. Forgety, we hear a lot about next generation 9-1-1 
(NG 9-1-1) and the significant advancement that technology such as 
Voice over Internet Protocol (VoIP) will bring to Public Safety 
Answering Points (PSAPs). I understand that some 9-1-1 call centers 
across the country are now able to receive text messages, another 
exciting development. How far away are we from developing the PSAPs of 
the future where callers will be able to send video and images from 
cell phones for example?
    Answer. It is my pleasure to respond to your question of October 4 
concerning the time line for development and deployment of next 
generation public safety answering points. NENA has expended great 
effort over the last decade to develop open, consensus standards for NG 
9-1-1 and to establish a legal and regulatory framework that fosters 
meaningful competition in the market for 9-1-1-related equipment, 
software, and services. Those efforts have begun to bear fruit, as 
States as diverse as Vermont, Alabama, Washington, and Tennessee have 
started to deploy transitional 9-1-1 systems with intermediate 
capabilities and foundational infrastructure. In many cases, however, 
these efforts have been stymied by laws and regulations drafted at a 
time at which there was no alternative to the physical reality of the 
public-switched telephone network (PSTN). This, coupled with the 
persistent exclusion of 9-1-1 from nearly all Federal preparedness, 
homeland security, and public safety grant funding streams has slowed 
the deployment of NG 9-1-1 service. As you are aware, IP-based 
communications systems offer the potential for dramatic improvements in 
service to the public and significant cost savings for still-struggling 
municipal and State governments.
    In order to overcome these challenges and reap the benefits of 
modern communications technology, NENA believes that we must undertake 
a serious effort to eliminate legacy laws and regulations that inhibit 
the deployment of advanced technology, and include 9-1-1 improvements 
as eligible costs in all Federal grant programs aimed at public safety 
communications and preparedness.
    In your letter, you correctly note that some text messaging trials 
have taken place in small geographic areas such as Blackhawk County, 
Iowa, and Durham, North Carolina. These trials, however, represent but 
a meager response to an imminent and pressing need: The public 
overwhelming prefers text for much of its daily communications needs, 
and, for certain segments of the public, text messaging represents the 
only--or the only safe--means of communicating. For example, 
individuals with hearing or speech disabilities and victims of domestic 
violence are often unable to make a voice call to 9-1-1 due to their 
impairment or fear of reprisal, respectively. For these individuals, 
text-to-9-1-1 represents the only viable option to seek timely 
emergency assistance. Commercial solution providers now offer an array 
of text-to-9-1-1 service offerings on a competitive basis, and major 
carriers have announced plans for broader text-to-9-1-1 trials or 
deployments. These developments are encouraging, but are far from 
sufficient: In order for text messaging to serve the public as many 
already believe (wrongly) that it does, text-to-9-1-1 must be made 
operational throughout the country. Otherwise, the public could face a 
bewildering patchwork of jurisdictions, carriers, and devices with 
which text service does and doesn't work.
    To speed the deployment of ubiquitous text-to-9-1-1 service, NENA 
has advocated for a three-part solution that would ensure access to 
text-to-9-1-1 on a reasonable but certain time frame while preserving 
the flexibility of carriers and public safety answering points alike to 
engineer their own solutions for text messaging support. First, we 
propose carriers be required to implement a ``bounce-back'' message in 
areas where text-to-9-1-1 is not yet supported. This short-term measure 
would alert consumers who are unaware that this capability does not 
exist in most carrier networks or jurisdictions of the need to contact 
9-1-1 via voice telephone call. Second, we propose that carriers be 
required to implement text--without specifying a required text 
messaging platform--by a reasonable date certain. This will allow 
carriers to choose the text-messaging platform that is best suited to 
their unique architectures and user bases, and avoid the imposition of 
unrealistic or unnecessary requirements. Finally, we propose that PSAPs 
be permitted to choose the method by which they wish to receive text 
messages. This would allow PSAPs to leverage existing investments in 
TTY equipment and software required under ADA regulations, or to 
implement transitional IP-based or full-blown NG 9-1-1 service 
processes, as circumstances permit. NENA believes that this approach 
strikes an appropriate balance between the needs of the public, the 
public safety community, and carriers.
    Beyond these transitional steps, the PSAP of the future looms large 
in the sights of NENA's members. Already, PSAPs around the country are 
implementing transitional technologies like consumer-facing data 
registries, ``big data'' analytics, blueforce tracking, and integrated 
mass-notification systems. True next-generation capabilities such as 
photo and video interchange will not, however, be available until the 
transition is further along. These capabilities require significantly 
different infrastructure that--though cheaper to operate on a long-term 
basis--may not be readily deployable due to the lack of funding for 
transitional operations during which both legacy and next generation 
systems must be simultaneously maintained. Furthermore, the diverse and 
ever-changing world of applications, devices, and networks that modern 
video and still-image communications inhabit presents novel and unique 
problems for our existing regulatory apparatus which developed in 
response to a much more monolithic model of telecommunications. Sorting 
through jurisdictional questions alone will take some time. Too, 
Congressional action may be required to provide the certainty necessary 
to ensure that the public will continue to have access to robust 
emergency communications capabilities using the applications, devices, 
and networks they prefer without opening the door to excessive 
regulation of competitive markets for those products and services. 
These are important issues that deserve exploration, and I urge you to 
continue the committee's inquiry into 9-1-1 matters in the upcoming 
Congress.
    Once again, thank you for holding this important hearing, and for 
providing NENA with this opportunity to inform the committee about the 
pressing issues facing the 9-1-1 community. If I may be of any further 
service, please do not hesitate to ask!
        Question From Chairman Gus M. Bilirakis for Kyle Malady
    Question. Mr. Malady, in your testimony, you discussed several 
tests Verizon is conducting to root out and protect against system 
vulnerabilities. Among others, you mentioned tests for ``failed 
automated controls'' and ``prioritized system load transfer'' 
scenarios. Can you tell us more about these tests and about other tests 
Verizon plans to execute?
    Answer. In my testimony, I referred to enhanced testing for 
``failed automated controls.'' As background and as a matter of course 
prior to the June derecho, we frequently conducted tests to ensure 
that, in the event of a commercial power outage, our generators would 
start and support equipment at affected sites. We executed these tests 
using an automated control system (known as a ``controller'') in 
central offices that senses the loss of utility power; signals the 
generator(s) to start; and, once the generator(s) are working, opens 
and closes a series of breakers to transfer the equipment from 
commercial power to generator power. Thus, our previous testing routine 
focused on verifying that site equipment would transfer to generator 
power when the automated controller was functioning properly.
    As a result of our investigation, we have added procedures to our 
maintenance routine to test the transfer to back-up generator power in 
the event that the automated controller is not functional. We have 
created procedures for turning on generators manually and for manually 
opening and closing the various breakers.
    In my testimony, I also referred to ``prioritized system load 
transfer'' scenario testing. Prioritized system load transfer refers to 
the ability, in an office with multiple generators that are connected 
as a common system, to program the controller to close only the 
breakers connected to priority equipment if one of the generators in 
the system is not operating. This enables priority equipment to be 
powered by the generator(s) that is operational. Again, as a result of 
our investigation after the storm, we have instituted a number of 
improvements to test our prioritized load transfer capabilities. For 
example, we now test to ensure that prioritized equipment continues to 
be powered in the case where one of the generators fails to start. We 
also test to ensure that prioritized equipment continues to be powered 
in the case where all of the generators initially start but then one 
generator fails. In all of the scenarios, we are testing to confirm 
that the controller closes only certain breakers to ensure that higher 
priority equipment continues to be powered by the generator(s) that is 
operational.
    Finally, we are also implementing test scenarios that assume that 
the controller's prioritized system load capability has failed. In 
those scenarios, we will test to ensure that we can manually control 
the breakers to achieve the system loads that an operational controller 
would have achieved.
    Verizon has added the testing protocols described above to our 
existing power test procedures.
    Thank you for the opportunity to clarify these points.

                                 <all>

</pre></body></html>
